No. _______________
IN THE

SUPREME COURT OF THE UNITED STATES
October Term 2020

AMY EVERETT,
Petitioner,
v.
COBB COUNTY, GEORGIA,
OFFICER JAMES W, HOPKINS, individually
and in his official capacity,
LANI MESHELLA MILLER,
Respondents.

____________________________________

APPENDIX
________________________
Petition for Writ of Certiorari
To the Eleventh Circuit
______________

March 29, 2021

JOHN P. BATSON
1104 Milledge Road
Augusta, GA 30904
706-737-4040
jpbatson@aol.com
Member Supreme Court Bar
Attorney for Petitioner Everette
Counsel of Record

Appendix
Table of Contents
Everett v. Cobb Co., et al.

Panel Opinion,
Everett v. Cobb County, Georgia, et al.,
11th Cir. No. 19-14337
(Order entered August 21, 2020) ..................................................................1a - 13a
Denial of Petition for Rehearing and Petition for Rehearing En Banc
Everett v. Cobb County, Georgia, et al.,
11th Cir. No. 19-14337
(Order entered October 30, 2020) ...............................................................14a - 15a
District Court Order (Motion to Dismiss Miller)
Amy and Tjelvar Everett v. Cobb County, Georgia, et al.,
No. 1:17-cv-03392-TWT (N.D. Ga.)
(Order entered December 18, 2017) (Doc. 20) ...........................................16a - 23a
District Court Order (Motion for Summary Judgment)
Amy and Tjelvar Everett v. Cobb County, Georgia, et al.,
No. 1:17-cv-03392-TWT (N.D. Ga.)
(Order entered July 29, 2019) (Doc. 85) .....................................................24a - 51a
Complaint
Amy and Tjelvar Everett v. Cobb County, Georgia, et al.,
No. 1:17-cv-03392-TWT (N.D. Ga.)
(Filed September 6, 2017) (Doc. 1) ..........................................................52a - 104a
Hopkins’ Warrant Aff. (Doc. 1-1) ..............................................105a - 106a
Cease and Desist Demand Letter (Doc. 1-2) .............................107a - 108a
Hopkins’ Deposition (Doc. 71-5, pp. 31-32; 39-41; 50-51) ..............................109a - 115a
Hopkins’ Eval. Ref. Everett Case #15080289 (Doc. 71-9)............................................ 116a
Facebook Messenger Communications (2) (Doc. 72-3, pp. 1-2) ....................... 117a – 118a
Email Communications (9) (Doc. 72-3, pp. 3-11) ..............................................119a - 127a
Complaint to Cobb County Internal Affairs (Doc. 72-16)...................................128a -131a
Response to Complaint from Cobb County (Doc. 72-17) ............................................. 132a

i

Case: 19-14337

Date Filed: 08/21/2020

Page: 1 of 13

1a

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14337
Non-Argument Calendar
________________________
D.C. Docket No. 1:17-cv-03392-TWT
AMY EVERETT,
Plaintiff - Appellant,

TJELVAR EVERETT,

Plaintiff,
versus
COBB COUNTY, GEORGIA,
OFFICER JAMES W. HOPKINS,
in his individual and official capacities,
Defendants - Appellees,

LANI MESHELLA MILLER,
in her individual capacity,

Defendant.

Case: 19-14337

Date Filed: 08/21/2020

Page: 2 of 13

2a

________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(August 21, 2020)
Before JILL PRYOR, BRANCH and MARCUS, Circuit Judges.
PER CURIAM:
Amy Everett (“Everett”) was arrested for sending threatening and harassing
emails to a former colleague, Lani Miller (“Miller”). She then brought this § 1983
action against Detective James Hopkins, the officer who applied for and secured a
warrant for her arrest from a judicial officer, for violating, among other things, the
First and Fourth Amendments; Cobb County, Georgia for maintaining a pattern and
practice of violating the First and Fourth Amendments; and Miller for conspiring
with the police to violate the First and Fourth Amendments. The district court
dismissed the claim against Miller, holding that Everett had not alleged sufficient
facts from which it could be plausibly inferred that Miller had conspired with the
police. Thereafter, it granted summary judgment to Detective Hopkins and the
County, concluding, on the undisputed record, that all of Miller’s various claims
were barred by qualified immunity, official immunity and/or sovereign immunity.
After careful review, we affirm.

2

Case: 19-14337

Date Filed: 08/21/2020

Page: 3 of 13

3
3a

The relevant, undisputed background is this. In 2007, Everett’s husband,
Tjelvar Everett (“Tjelvar”), had an extramarital affair with Miller when all three
were public school teachers at the same school in Hiram, Georgia. In 2015, after the
Everetts had moved and lived in Alabama for six years, Tjelvar revealed the affair
to Everett. Understandably angry, Everett initially called Miller to express her
outrage, and then sent her an ongoing cavalcade of emails and Facebook messages,
which were vituperative, lewd, laden with expletives, and threatened an evolving
panoply of harms.1 Everett also created several accounts on social media posing as
Miller and Tjelvar, and sent similarly graphic messages to Miller’s husband, mother,
cousin, and new school colleagues.2 Everett’s campaign reached a crescendo in

1

The messages began on January 2, 2015, when Everett messaged Miller and her
husband on Facebook Messenger and said, “I just want you to know that for whatever reason TJ
felt his need to unburden himself with his past transgressions . . . . I never considered us friends,
but I also did not think you were the type to f*ck a married guy with a new baby, whose wife
was in the middle of postpartum depression.” The message continued in this vein. Several days
later, on January 11, 2015, Everett sent Miller, without explanation, a link to a news article about
a “revenge website” that “shames accused mistresses.”
Many more messages followed. On July 27, 2015, for example, Everett sent Miller an
email with the subject line “Beware HHS. She will sleep with your husband and smile to your
face.” The email conveyed Everett’s anger about the affair, insulted Miller, and said “everyone”
was “[b]cc’d” on the email “so you can pretend this never happened, Lani.” Then, on August 24,
2015, Everett sent three emails to Miller from the account lani_miller@aol.com, asking if
Miller’s principal, son and other family members knew she was “a wh*re” and repeatedly calling
her names. That same day she emailed Miller from the account lanimiller666@yahoo.com,
writing that Everett wanted to see Miller cry and using more expletives.
2

On January 10, 2015, for example, Everett messaged Miller’s husband on Facebook,
warning that Miller is “going to learn what it means to f*ck with someone’s family,” and
demanding an apology. On August 24, 2015, Everett sent an email from the account
lani_miller@aol.com to Miller’s mother, claiming to be Miller, which said, among other things:
“I need you to know I f*cked this biology teacher who was married and I knew his wife,” and
3

Case: 19-14337

Date Filed: 08/21/2020

Page: 4 of 13

4a

August 2015, and Miller, understandably frightened, reported what was happening
to Detective Hopkins at the Cobb County Police Department on August 25, 2015.
She gave Hopkins copies of the emails and told him she wanted the conduct to stop.
Hopkins attempted to contact Everett by telephone but was unable to do so, and he
then sent a cease and desist letter to all of the email accounts she had been using.
The cease and desist letter said that “I[f] there is any further communication
beyond today’s date of August 26, 2015 at the hour of 1:00pm, I will secure a warrant
for your arrest on the charge of Harassing Communications and Stalking.” At 1:36
p.m. on August 26, 2015, Everett sent a final email to Miller. Hopkins secured a
warrant for Everett’s arrest and requested her extradition from Alabama. The
Everetts learned about the warrant about a week later from an attorney, and Tjelvar
called Hopkins, asking him to rescind the warrant, which he said it was too late to
do. A few hours later, Everett was arrested at her home. After Everett agreed to
attend anger management classes, the prosecutor declined to pursue the case.

“Were you a wh*re, too, mom?” On August 26, 2015, Everett wrote to Miller’s husband from
an account named tj.everett@live.com, posing as Tjelvar, and purported to describe the sex
Tjelvar and Miller had and to suggest that Miller’s husband divorce her.
That same day, Everett again posed as Tjelvar in an email to Miller’s department at the
new school at which Miller was teaching, detailed the affair, and warned that Miller “is not who
you think she is. She is a snake in the grass and so am I.” Everett followed up with another
email to the department, this one from the lani_miller@aol.com account, which pretended to be
Miller admitting to the affair and giving additional graphic details.
4

Case: 19-14337

Date Filed: 08/21/2020

Page: 5 of 13

5
5a

On September 6, 2017, Everett and Tjelvar sued, bringing federal civil rights
claims and tort claims under Georgia state law against Detective Hopkins, Cobb
County, and Miller. The district court granted Miller’s motion to dismiss, and later
granted summary judgment to Hopkins and the County. This timely appeal follows.
In reviewing de novo the district court’s grant of summary judgment to
Detective Hopkins and the Cobb County Police Department, we resolve all issues of
material fact in favor of the plaintiff. Lee v. Ferraro, 284 F.3d 1188, 1190 (11th Cir.
2002). We will affirm a grant of summary judgment if the movant has shown, based
on our review of the entire record, “that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Similarly, in reviewing de novo the district court’s grant of Miller’s motion to
dismiss under Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim,
we accept the allegations in the complaint as true and construe them in the light most
favorable to the plaintiff. Hill v. White, 321 F.3d 1334, 1335 (11th Cir. 2003). “To
survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quotations omitted).
First, we are unpersuaded by Everett’s claim that the district court erred in
granting summary judgment to Detective Hopkins on qualified immunity grounds.
The doctrine of qualified immunity protects government officials, like Hopkins,
5

Case: 19-14337

Date Filed: 08/21/2020

Page: 6 of 13

6
6a

“from liability for civil damages insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would
have known.” Pearson v. Callahan, 555 U.S. 223, 231 (2009) (quotations omitted).
“In order to receive qualified immunity, the public official must first prove that he
was acting within the scope of his discretionary authority when the allegedly
wrongful acts occurred.” Lee, 284 F.3d at 1194 (quotations omitted). There is no
dispute that Hopkins was acting within his discretionary authority in this case. Thus,
Everett has the burden to show that “the official’s alleged conduct violated a
constitutional right, and that the constitutional right at issue was clearly established.”
Brooks v. Warden, 800 F.3d 1295, 1306 (2015). Courts may take up these two steps
in either order, though it is unnecessary to decide both where it is plain that the law
is not clearly established. See Pearson, 555 U.S. at 227, 242. This case is easily
resolved on the second prong, so it is unnecessary to resolve the first. Id.
A right can be clearly established “either by similar prior precedent, or in rare
cases of ‘obvious clarity.’” Gilmore v. Hodges, 738 F.3d 266, 277 (11th Cir. 2013).
To show that a right is clearly established by prior precedent, the plaintiff has a
burden of offering precedent “particularized” to the facts of the case by
“identify[ing] a case where an officer acting under similar circumstances” was held
to violate the Constitution. White v. Pauly, 137 S. Ct. 548, 552 (2017) (quotation
omitted). “Exact factual identity with a previously decided case is not required, but
6

Case: 19-14337

Date Filed: 08/21/2020

Page: 7 of 13

7
7a

the unlawfulness of the conduct must be apparent from pre-existing law.” Coffin v.
Brandau, 642 F.3d 999, 1013 (11th Cir. 2011) (en banc).

Put simply, the

constitutional question at issue must be “beyond debate.” White, 137 S. Ct. at 551
(quotations omitted).
Here, Everett has not established that Detective Hopkins violated Everett’s
clearly established First Amendment right when he allegedly secured an arrest
warrant in retaliation for her harassing emails. To succeed on this claim, Everett
needed to show, first, that her speech or act was constitutionally protected; second,
that Defendant Hopkins’ retaliatory conduct adversely affected the protected speech;
and, third, that there is a causal connection between the retaliatory actions and the
adverse effect on speech. Bennett v. Hendrix, 423 F.3d 1247, 1250 (11th Cir. 2005)).
On this record, Everett has not pointed us to any clearly established case law
suggesting that her communications were protected by the First Amendment. In the
emails she sent to Miller, Everett: (1) demanded an apology using threatening
language; (2) warned that she planned to visit Miller’s place of work because she
“need[ed] to see [her] cry”; (3) repeatedly described the alleged sexual encounter
between Miller and Tjelvar in detail; (4) threatened to upend Miller’s personal and
professional life; and (5) followed through on that threat. It is well established that
obscene communications intended to harass and frighten the recipient are not
protected speech. See Miller v. California, 413 U.S. 15, 21 (1973) (affirming that
7

Case: 19-14337

Date Filed: 08/21/2020

Page: 8 of 13

8a

obscenity can be criminalized); Virginia v. Black, 538 U.S. 343, 359 (2003)
(affirming that threatening speech can be criminalized). Indeed, in a case factually
analogous to this one, we held that graphic harassing and threatening
communications like those here -- e.g., “Hey Sue, why don’t you take one of them
f*ckin’ school buses . . . and use it like a vibrator . . . ” -- were not protected by the
First Amendment because they were legally obscene. United States v. Eckhardt, 466
F.3d 938, 945 (11th Cir. 2006).
In contrast, the case on which Everett primarily relies, Watts v. United States,
394 U.S. 705, 706 (1969), is entirely distinguishable from this one on its facts. In
that case, the Supreme Court held that it violated the First Amendment to arrest a
protester who said “If they ever make me carry a rifle the first man I want to get in
my sights is L.B.J.” The facts of Watts do not, in any way, make clear that Everett’s
personal, apolitical and obscene campaign to ruin Miller’s life is similarly protected.
Nor does Everett make any showing that this is a case of obvious clarity. Thus,
because Everett has failed to carry her burden to show that, under clearly established
law, her communications were protected by the First Amendment, Hopkins is
entitled to qualified immunity on her First Amendment claim.
For similar reasons, Hopkins is entitled to qualified immunity on Everett’s
Fourth Amendment claim.

Everett argues that Hopkins violated her Fourth

Amendment rights by obtaining a warrant without probable cause. But officers are
8

Case: 19-14337

Date Filed: 08/21/2020

Page: 9 of 13

9a

protected by qualified immunity in this context so long as there was “arguable
probable cause” for the warrant they obtained. Crosby v. Monroe Cty., 394 F.3d
1328, 1332 (11th Cir. 2004); see also Jones v. Cannon, 174 F.3d 1271, 1283 n.3
(11th Cir. 1999) (“[T]he [qualified immunity] inquiry is not whether probable cause
actually existed, but instead whether an officer reasonably could have believed that
probable cause existed.”) (quotations omitted). Because Everett’s communications
plainly fell within Georgia’s harassing communications statute3 and criminalizing
those communications did not, as we’ve discussed, violate clearly established First
Amendment law, the warrant in this case was plainly supported by arguable probable
cause.
Moreover, to the extent Everett seeks to argue that the warrant violated the
Constitution because she was located in Alabama, we are unpersuaded. It has long
been understood that a state’s constitutional authority encompasses punishment for
crimes committed out of the state that were intended to produce harm within the
state, and there is no doubt that the harm of the harassing communications in this
case took place in Georgia. See Strassheim v. Daily, 221 U.S. 280, 285 (1911); see
also Simpson v. State, 17 S.E. 984, 986 (Ga. 1893) (noting that it is “beyond question
3

That statute provides that “[a] person commits the offense of harassing communications
if such person . . . [c]ontacts another person repeatedly via telecommunication, e-mail, text
messaging, or any other form of electronic communication for the purpose of harassing,
molesting, threatening, or intimidating such person or the family of such person.” O.C.G.A. §
16-11-39.1(a)(1). Everett does not dispute that her conduct fell within the text of the statute and
only argues that its application in this case violates the First Amendment.
9

Case: 19-14337

Date Filed: 08/21/2020

Page: 10 of 13

10a

that a criminal act begun in one stated and completed in another renders the person
who does the act liable to indictment in the latter”). And the record is undisputed
that Hopkins and his supervisors at the police department requested Everett’s
extradition from Alabama through the appropriate, established channels between the
states, suggesting that no one along the way thought Everett’s arrest violated clearly
established law. In sum, Everett has simply offered us no grounds to conclude that
the district court erred in granting summary judgment to Detective Hopkins on
qualified immunity grounds.
As for Everett’s claim against Cobb County and Detective Hopkins (in his
official capacity) for the violations of her First and Fourth Amendment rights by one
of the entity’s employees, she must show that the violations were committed
pursuant to a government custom or policy. See Gold v. City of Miami, 151 F.3d
1346, 1350 (11th Cir. 1998); see also Monell v. Dep’t of Social Servs., 436 U.S. 658
(1978). The plaintiff may demonstrate this kind of custom or policy by pointing to
either “(1) an officially promulgated county policy or (2) an unofficial custom or
practice of the county shown through the repeated acts of a final policymaker for the
county.” Grech v. Clayton Cty., Ga., 335 F.3d 1326, 1329 (11th Cir. 2003).
Unable to point to an official policy of the Cobb County Police Department
to arrest people for engaging in First Amendment protected expression or without
probable cause, Everett claims that the department inadequately trains officers to
10

Case: 19-14337

Date Filed: 08/21/2020

Page: 11 of 13

11a

distinguish speech protected by the First Amendment from that which is not. But
she has not alleged -- much less identified in discovery -- a pattern of violations of
the First Amendment or the Fourth Amendment in Clayton County and this dooms
her claim of municipal liability. See Connick v. Thompson, 563 U.S. 51, 62 (2011)
(“A pattern of similar constitutional violations by untrained employees is ‘ordinarily
necessary’ to demonstrate deliberate indifference for purposes of failure to train.”).
Because Everett has raised no genuine disputes of material fact concerning any
unconstitutional patterns or policies of Cobb County, the district court did not err in
granting summary judgment to the County and Detective Hopkins on these claims.
Nor did the district court err in dismissing the case against Miller, because
Everett has not alleged sufficient facts to render plausible the claim that Miller
conspired with Hopkins to violate her First and Fourth Amendment rights. Section
1983 can provide a remedy against a private person, but only where “that person is
shown to have conspired with one or more state actors.” Rowe v. City of Ft.
Lauderdale, 279 F.3d 1271, 1285 (11th Cir. 2002). Making this claim requires the
allegation of sufficient facts from which an “‘understanding’ and ‘willful
participation’ between private and state defendants” can be inferred. Bendiburg v.
Dempsey, 909 F.2d 463, 469 (11th Cir. 1990).
Everett has not alleged facts of this sort. She simply alleges that Miller took
the emails to the police and was not entirely forthcoming about the context of
11

Case: 19-14337

Date Filed: 08/21/2020

Page: 12 of 13

12a

Everett’s harassment. Specifically, Everett alleges that Miller denied that the affair
had taken place and did not disclose that she and Everett had spoken over the phone
before Everett’s campaign began in earnest. But neither of these facts are pertinent
to Hopkins’s decision to pursue remedies for the harassment. As Hopkins attested,
whether the affair in fact occurred had no relevance to his decision to arrest Everett
for online harassment -- in other words, an understandable reason to be mad at
someone is not a legal excuse to harass them. The initial phone call in January
similarly does not undercut Miller’s allegation that she was harassed in any way,
since it was actually part of Everett’s harassment. Thus, based on the allegations in
the complaint, we cannot conclude that the district court erred in dismissing
Everett’s claims against Miller.
Finally, the district court did not err in rejecting Everett’s constellation of
subsidiary and state law claims. Among other things, Detective Hopkins and Cobb
County are entitled to official and sovereign immunity under Georgia law for reasons
similar to the federal qualified immunity analysis. See Merrow v. Hawkins, 467
S.E.2d 336, 337 (Ga. 1996) (official immunity applies to government officials unless
the plaintiff can show a defendant acted with “actual malice”); Gilbert v. Richardson,
452 S.E.2d 476, 478 & n.4 (Ga. 1994) (local governments and their officials are
shielded from suit by sovereign immunity unless that immunity has been waived).

12

Case: 19-14337

Date Filed: 08/21/2020

Page: 13 of 13

13a

Everett has made no argument that the immunity analysis would differ under state
law in this case. We affirm the district court’s decision in its entirety.4
AFFIRMED.

4

In addition, because Everett’s motion to supplement the record contains materials that
were not before the district court and are duplicative of the information already in the record, we
DENY the motion.
13

USCA11 Case: 19-14337

Date Filed: 10/30/2020

Page: 1 of 2

14a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14337-EE
________________________
AMY EVERETT,
Plaintiff - Appellant,

TJELVAR EVERETT,

Plaintiff,
versus
COBB COUNTY, GEORGIA,
OFFICER JAMES W. HOPKINS,
in his individual and official capacities,
Defendants - Appellees,

LANI MESHELLA MILLER,
in her individual capacity,

Defendant.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC

BEFORE: JILL PRYOR, BRANCH and MARCUS, Circuit Judges.

USCA11 Case: 19-14337

Date Filed: 10/30/2020

Page: 2 of 2

15a

PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 1 of 8

16a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMY EVERETT, et al.,
Plaintiffs,
v.

CIVIL ACTION FILE
NO. 1:17-CV-3392-TWT

COBB COUNTY, GEORGIA, et al.,
Defendants.
OPINION AND ORDER
This is a Section 1983 case. It is before the Court on the Defendant
Lani Meshella Miller’s Motion to Dismiss [Doc. 7]. For the reasons stated
below, the Defendant’s Motion to Dismiss is GRANTED.
I. Background
The Plaintiffs Amy and Tjelvar Everett are a married couple
currently residing in Alabama.1 The Defendant Miller is a former coworker
of the Plaintiffs and a resident of Georgia.2 The Plaintiffs allege that on
January 1, 2015, Tjelvar Everett revealed to his wife that he had engaged
in an extramarital affair with Miller between 2006 and 2008 when the

1

Compl. ¶¶ 1-2.

2

Id. at ¶ 5.

T:\ORDERS\17\Everett\mtdMillertwt.wpd

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 2 of 8

17a
Everetts and Miller were teachers at a high school in Georgia.3 Upon
learning of the affair, Amy Everett attempted to contact Miller and her
husband through Facebook, but did not receive a response.4 Amy Everett
then contacted Miller at her current place of employment via telephone.5
After their conversation, Amy Everett then sent emails and other electronic
communications to Miller’s extended family and coworkers exposing the
affair in an effort to “warn” them.6
Miller contacted the Cobb County Police Department to report that
she had been receiving harassing emails from Amy Everett.7 Detective
Hopkins, another Defendant in this case, was assigned to investigate the
issue.8 Hopkins interviewed Miller, at which time she “was adamant that
she had [had] no such affair.”9 Miller also apparently failed to disclose the
phone conversation she had had with Amy Everett.10 Hopkins then sent a

3

Id. at ¶¶ 9-10.

4

Id. at ¶ 16.

5

Id. at ¶ 17.

6

Id. at ¶¶ 21-22, 24.

7

Compl., Ex. D at 1.

8

Id.

9

Id.

10

Compl. ¶ 77.

T:\ORDERS\17\Everett\mtdMillertwt.wpd

-2-

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 3 of 8
cease and desist letter to the Plaintiffs.

11

After Miller received another

email from the Plaintiffs, Hopkins applied for and obtained an arrest
warrant for the charge of Harassing Communications.12 Amy Everett
was eventually arrested at her home in Alabama.13
The case against Amy Everett was eventually resolved in her favor,
but not before she alleges she suffered numerous injuries as a result of her
arrest.14 The Plaintiffs then filed suit in this Court against the Defendants
alleging three different violations of the Plaintiffs’ constitutional rights
pursuant to 42 U.S.C. § 1983 (Counts I-III) and three different state law tort
claims, including false imprisonment, false arrest, and malicious prosecution (Counts IV-VI).15 Miller now moves to dismiss all of the claims against
her.
II. Legal Standard
A complaint should be dismissed under Rule 12(b)(6) only where it
appears that the facts alleged fail to state a “plausible” claim for relief.16 A

11

Id. at ¶¶ 26-28.

12

Id. at ¶ 39.

13

Id. at ¶ 44.

14

Id. at ¶¶ 59-73.

15

Id. at ¶¶ 126-187.

16

Ashcroft v. Iqbal, 129 S. Ct. 1937, 1949 (2009); Fed. R. Civ. P.

12(b)(6).

T:\ORDERS\17\Everett\mtdMillertwt.wpd

-3-

18a

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 4 of 8
complaint may survive a motion to dismiss for failure to state a
claim, however, even if it is “improbable” that a plaintiff would be able
to prove those facts; even if the possibility of recovery is extremely
“remote and unlikely.”17 In ruling on a motion to dismiss, the court must
accept the facts pleaded in the complaint as true and construe them in
the light most favorable to the plaintiff.18 Generally, notice pleading is all
that is required for a valid complaint.19 Under notice pleading, the
plaintiff need only give the defendant fair notice of the plaintiff’s claim and
the grounds upon which it rests.20
III. Discussion
On the face of the Complaint, it is not entirely clear what claims are
being asserted against Miller.21 Counts I-V seem to apply only to the
Defendants Hopkins and Cobb County, as there is very little mention of

17

Bell Atlantic v. Twombly, 550 U.S. 544, 556 (2007).

See Quality Foods de Centro America, S.A. v. Latin American
Agribusiness Dev. Corp., S.A., 711 F.2d 989, 994-95 (11th Cir. 1983); see
also Sanjuan v. American Bd. of Psychiatry & Neurology, Inc., 40 F.3d 247,
18

251 (7th Cir. 1994) (noting that at the pleading stage, the plaintiff “receives
the benefit of imagination”).
19

See Lombard’s, Inc. v. Prince Mfg., Inc., 753 F.2d 974, 975

(11th Cir. 1985), cert. denied, 474 U.S. 1082 (1986).
20

See Erickson v. Pardus, 551 U.S. 89, 93 (2007) (citing Twombly,

550 U.S. at 555).
21

Counts I-V seem to apply to the Defendants Hopkins and Cobb
County. There is very little mention of Miller. Only Count IV, malicious
prosecution, specifically accuses Miller.
T:\ORDERS\17\Everett\mtdMillertwt.wpd

-4-

19a

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 5 of 8
Miller. Only Count IV, malicious prosecution, specifically accuses Miller.
But to the extent the Plaintiffs are asserting federal Section 1983 claims
against Miller, they must be dismissed because Miller is not a state actor.
“To establish a claim under 42 U.S.C. § 1983, a plaintiff must prove (1) a
violation of a constitutional right, and (2) that the alleged violation was
committed by a person acting under color of state law.”22 “Only in rare
circumstances can a private party be viewed as a ‘state actor’ for section
1983 purposes.”23 However, private actors can be found to have acted under
color of state law if they “conspired with one or more state actors.”24 “The
plaintiff attempting to prove such a conspiracy must show that the parties
‘reached an understanding’ to deny the plaintiff his or her rights.”25 Private
actors can do this not only by expressly reaching an agreement, but also by
intentionally misleading state actors through exaggeration or deceit.26 But,
a private actor does not act under color of state law by simply eliciting action

22

Holmes v. Crosby, 418 F.3d 1256, 1258 (11th Cir. 2005).

23

Harvey v. Harvey, 949 F.2d 1127, 1130 (11th Cir.1992).

24

Rowe v. City of Fort Lauderdale, 279 F.3d 1271, 1285 (11th Cir.

25

N.A.A.C.P. v. Hunt, 891 F.2d 1555, 1563 (11th Cir. 1990).

2002).

Bendiburg v. Dempsey, 909 F.2d 463, 469 (11th Cir. 1990)
(finding private doctors to be state actors where they intentionally
exaggerated child’s medical condition in order to obtain temporary custody
over the child for medical treatment.).
26

T:\ORDERS\17\Everett\mtdMillertwt.wpd

-5-

20a

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 6 of 8

21a
from a state actor.27 Thus, the line is drawn at whether the state’s judgment
has been substituted for that of a private party.28
Here, the Plaintiffs have failed to allege sufficient facts to suggest
that Miller and Hopkins “reached an agreement” or “conspired” to maliciously prosecute Amy Everett. Miller did not “exaggerate” the nature of
Amy Everett’s communications. The Complaint never disputes the nature
of Amy Everett’s communications to Miller’s family and coworkers. And
though she allegedly lied to Hopkins about the affair, Hopkins was clear
that the existence of the affair was immaterial to his independent decision
to pursue a warrant.29 Thus, whether Miller lied about the existence of the
affair or not, it made no difference to the arrest and prosecution of Amy
Everett. Hopkins made his decision to swear out a warrant independently,

Dye v. Radcliff, 174 F. App'x 480, 483 (11th Cir. 2006). See also
id. at 483 n.1 (collecting cases); Lehman v. Scott, No. 2:08-CV-530, 2009 WL
27

1228433, at *3 (M.D. Fla. May 4, 2009) (“It is well established, however, that
a private citizen does not engage in joint action with a state actor simply by
calling upon official state authority or furnishing information to police
officers (even if that information is factually incorrect.”).
28

See Cruz v. Donnelly, 727 F.2d 79, 80 (3d Cir. 1984) (“. . .we

cannot say that either the complaint or the affidavits suggest the existence
of a pre-arranged plan by which the police substituted the judgment of
private parties for their own official authority. Absent allegations or facts
tending to show such a plan, neither [defendant] can be said to have
engaged in” a conspiracy sufficient to bring them under a Section 1983
claim.).
29

Compl., Ex. B at 1 (“Whether there was any infidelity or not
has no bearing on this investigation and does not in any way condone
harassing a person through any means of communication.”).
T:\ORDERS\17\Everett\mtdMillertwt.wpd

-6-

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 7 of 8

22a
and solely on the basis of Amy Everett’s communications. Because the
Complaint’s own allegations show that Hopkins used his own independent
judgment, and did not in any way act in concert with Miller, Miller cannot
be said to be a state actor. The Section 1983 federal claims against Miller
are dismissed with prejudice.
Having dismissed the federal claims against Miller, the Plaintiffs’
remaining state based claims against her can only survive in this Court on
the basis of diversity jurisdiction.30 But the Plaintiffs have not cited the
diversity statute, 28 U.S.C. § 1332, as a basis for jurisdiction, nor have they
plainly alleged damages in excess of $75,000. This does not mean that this
Court does not have jurisdiction over the state claims; it simply means that
the Plaintiffs have not clearly demonstrated it in their pleadings. In
situations like this, leave to amend is often given.31 Therefore, the state law
claims are dismissed without prejudice. The Plaintiffs have 30 days from the
date of this Order to amend the Complaint to sufficiently show that this
Court has jurisdiction over the state claims against Miller.

30

See 28 U.S.C. § 1332.

31

Sauers v. Salt Lake Cty., 722 F. Supp. 676, 685 (D. Utah 1989),

aff'd, 1 F.3d 1122 (10th Cir. 1993) (“. . .failure to state the grounds on which
jurisdiction depends will not automatically result in dismissal of a complaint
if the factual basis for the claim is stated. Leave to amend the complaint in
order to cure this defect is normally freely given.”).

T:\ORDERS\17\Everett\mtdMillertwt.wpd

-7-

Case 1:17-cv-03392-TWT Document 20 Filed 12/18/17 Page 8 of 8

23a
IV. Conclusion
The Defendant Miller’s Motion to Dismiss [Doc. 7] is GRANTED. The
Plaintiffs’ federal claims against the Defendant Miller are DISMISSED, and
the Plaintiffs are ordered within 30 days to amend the Complaint to
demonstrate that this Court has subject matter jurisdiction over the
remaining state claims.
SO ORDERED, this 18 day of December, 2017.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

T:\ORDERS\17\Everett\mtdMillertwt.wpd

-8-

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 1 of 28

24a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMY EVERETT,
Plaintiff,
CIVIL ACTION FILE
NO. 1:17-CV-3392-TWT

v.
COBB COUNTY, GEORGIA, et al.,
Defendants.

OPINION AND ORDER
This is a civil rights action. It is before the Court on the Defendants Cobb
County and Officer James W. Hopkins’ Motion for Summary Judgment [Doc.
65]. For the reasons stated below, the Defendants’ Motion for Summary
Judgment is GRANTED.
I.

Background

The Plaintiff Amy Everett is a resident of Alabama. 1 On January 1,
2015, the Plaintiff’s husband, Tjelvar Everett, admitted that he had engaged
in an affair while both were working as teachers at Hiram High School in
Georgia during the 2006-07 and 2007-08 school years.2 On January 2, 2015,
the Plaintiff attempted to contact her husband’s alleged affair partner, Lani

1

Defs.’ Statement of Material Facts ¶ 60 [Doc. 65-2].

2

Id. ¶ 61.

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 2 of 28

Miller, through Facebook Messenger.3 The Plaintiff expressed anger and hurt
at Ms. Miller’s conduct and directed several profanity-laden insults at Ms.
Miller’s appearance and character.4 Ms. Miller did not respond. The Plaintiff
sent a similar message on January 10, 2015, demanding an apology, but again
did not receive a response. 5 The Plaintiff then called Ms. Miller’s place of
employment, Harrison High School in Kennesaw, Georgia, to speak to Ms.
Miller.6 The Plaintiff claims that they had a 30-minute conversation in which
Ms. Miller admitted to the affair and apologized.7 The Plaintiff told Ms. Miller
that she would place her name on a “revenge website” that lists the names of
adulterers and demanded that Ms. Miller publicly confess to the affair.8 When
Ms. Miller did not comply, the Plaintiff proceeded to send a series of emails to
Ms. Miller, her co-workers, her supervisors, and her family members over the
course of several months.9 In keeping with the Plaintiff’s original messages to
Ms. Miller, these emails were profane, insulting, and fixated on Ms. Miller’s

3

Id. ¶ 64.

4

Id.; Defs.’ Ex. 3 to Amy Everett Dep., at 71 [Doc. 68-1].

Defs.’ Statement of Material Facts ¶ 64; Defs.’ Ex. 3 to Amy
Everett Dep., at 72.
5

6

Defs.’ Statement of Material Facts ¶ 65.

7

Id. ¶¶ 65-67.

8

Id. ¶¶ 69, 72. The Plaintiff never placed Ms. Miller’s name on this

website. Id. ¶ 70.
9

Id. ¶¶ 75-86.
2

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

25a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 3 of 28

perceived moral failings.10 The Plaintiff used various accounts to send these
messages, at times posing as Ms. Miller or as Mr. Everett in order to “confess”
to the affair on their behalf.11 On August 24, 2015, the Plaintiff, writing from
an account registered under Ms. Miller’s name, sent emails to Ms. Miller, Ms.
Miller’s husband, and Ms. Miller’s mother. In one email to Ms. Miller, the
Plaintiff said that she planned to “come to Harrison for a visit this week”
because she “need[ed] to see [Ms. Miller] cry.”12
On August 25, 2015, Ms. Miller visited the Cobb County Police
Department to file a report.13 She spoke with Defendant James W. Hopkins, a
police detective. 14 Ms. Miller outlined her history with the Plaintiff and
provided Defendant Hopkins with the communications that she had received
to date. 15 Ms. Miller denied having an affair with the Plaintiff’s husband
during her interview. 16 After reviewing the information provided by Ms.
Miller, Defendant Hopkins determined that probable cause existed to seek a
warrant for violations of O.C.G.A. § 16-11-39.1, which criminalizes harassing

10

See generally Defs.’ Ex. 3 to Amy Everett Dep.

11

Defs.’ Statement of Material Facts ¶¶ 75-86, 101-106.

12

Id. ¶ 80; Defs.’ Ex. 3 to Amy Everett Dep., at 76.

13

Id. ¶ 87.

14

Id. ¶ 88.

15

Id. ¶¶ 89, 91-92.

16

Id. ¶ 93.
3

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

26a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 4 of 28

communications.17 Defendant Hopkins took no further action on August 25,
but told Ms. Miller that she should forward any additional communications to
him.18
The Plaintiff resumed emailing on August 26, 2015. On that date, the
Plaintiff sent emails “from” Ms. Miller and Mr. Everett to Ms. Miller’s coworkers “admitting” to the affair and describing sex acts in lurid detail. The
Plaintiff also sent an email to Ms. Miller’s husband urging him to divorce Ms.
Miller because of the affair.19 The Millers forwarded these emails to Defendant
Hopkins.20 Defendant Hopkins called a number listed in one of the emails but
was unable to reach the Plaintiff.21 Defendant Hopkins then sent a letter to
every email account associated with the Plaintiff, warning her to cease all
communication with Ms. Miller or face criminal charges.22 Defendant Hopkins
set a deadline of 1 p.m. on August 26, 2015, with no time zone specified.23 The
Plaintiff, writing from an email address registered under Mr. Everett’s name,
responded to Defendant Hopkins and insisted that the affair was real, rather

17

Id. ¶ 94.

18

Id. ¶ 100.

19

Id. ¶¶ 101-108. See Defs.’ Ex. 3 to Amy Everett Dep., at 78-80.

20

Defs.’ Statement of Material Facts ¶¶ 105, 108.

21

Id. ¶ 109.

22

Id. ¶¶ 115-16, 118.

23

Id. ¶ 116.
4

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

27a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 5 of 28

than merely suspected as the letter suggested.24 At 12:36 p.m. CT/1:36 p.m.
EST, the Plaintiff, again writing from an email account registered under Mr.
Everett’s name, emailed Ms. Miller to tell her that she should have named Mr.
Everett in her “complaint” to Defendant Hopkins.25 She further informed Ms.
Miller that she would have to come testify in the Plaintiff’s divorce
proceedings.26
After learning of the additional email to Ms. Miller, Defendant Hopkins
decided to apply for a warrant for the Plaintiff’s arrest.27 Magistrate Court
Judge Hugh Robinson granted the warrant on August 28, 2015. 28 After
securing the warrant, Defendant Hopkins recommended to the Cobb County
Sheriff’s Office that the Plaintiff be extradited from Alabama to face charges
in Cobb County. 29 The Sheriff’s Office submitted a formal request to the
Solicitor’s Office to extradite the Plaintiff from Alabama, which the Solicitor’s
Office then approved.30 After receiving the extradition request, the Sheriff’s
Office in Jefferson County, Alabama, arrested the Plaintiff at her home in

24

Id. ¶ 120.

25

Id. ¶ 121.

26

Id. ¶ 121.

27

Id. ¶ 125.

28

Id. ¶¶ 127, 135.

29

Id. ¶ 139.

30

Id. ¶¶ 140-41.
5

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

28a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 6 of 28

Hoover, Alabama on September 8, 2015. 31 The Plaintiff was taken to the
Jefferson County Jail.32 On September 9, 2015, the Plaintiff’s legal counsel
negotiated the lifting of the extradition request in return for the Plaintiff
voluntarily surrendering to authorities in Cobb County, Georgia. 33 The
Plaintiff voluntarily surrendered on September 10, 2015, and was released on
bond the same day.34 On October 18, 2015, the Cobb County Solicitor’s Office
charged the Plaintiff with violating O.C.G.A. § 16-11-39.1. 35 On March 16,
2016, the Solicitor’s Office entered a nolle prosequi in the Plaintiff’s case and
did not pursue the matter further.36
In October of 2016, the Plaintiff filed a formal complaint with the Cobb
County Police Department regarding Defendant Hopkins’ handling of the

31

Id. ¶ 143.

32

Id. ¶ 147.

33

Id. ¶ 148.

34

Id.

35

Id. ¶ 150.

Id. ¶ 157. The parties dispute the circumstances under which the
nolle prosequi was entered. The Defendant claims that the Plaintiff received
the nolle prosequi after completing an anger management evaluation,
performing 40 hours of community service, and admitting guilt. Id. It is the
policy of the Solicitor’s Office to enter nolle prosequi agreements only in the
cases of defendants who have admitted guilt. Id. ¶ 154. The Plaintiff admits to
36

completing the evaluation and performing the community service but claims
that she never admitted guilt. See Pl.’s Resp. to Defs.’ Statement of Material
Facts ¶ 157 [Doc. 75]. The nolle prosequi form submitted in state court does
not indicate whether the Plaintiff admitted guilt. See Defs.’ Ex. 14 to Amy
Everett Dep., at 125 [Doc. 68-1].
6
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

29a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 7 of 28

case.37 The Cobb County Police Department investigated the Plaintiff’s claim
and determined that the complaint was unfounded.38 The Plaintiff also filed a
formal complaint with the State Judicial Qualifications Commission against
Magistrate Judge Hugh Robinson, contending that Judge Robinson wrongly
issued the warrant that led to her arrest. 39 The Commission reviewed the
complaint and found no impropriety on the part of Judge Robinson.40
The Plaintiff and Mr. Everett filed the instant suit on September 6,
2017.41 The Complaint was filed pro se, but the Plaintiff has been represented
by counsel since October 1, 2017. 42 The Plaintiff and her husband named
Hopkins, Cobb County, and Ms. Miller as Defendants. Defendant Hopkins was
sued in his individual and official capacities. The Plaintiff and her husband
sought monetary and injunctive relief for 42 U.S.C. § 1983 violations of their
First, Fourth, and Tenth Amendment rights under the U.S. Constitution, as
well as for state law claims of false arrest, false imprisonment, and malicious
prosecution.43 On December 18, 2017, the Court dismissed the federal claims

37

Id. ¶¶ 159-60.

38

Id. ¶¶ 161-165.

39

Id. ¶ 166.

40

Id. ¶ 167.

41

Compl. [Doc. 1].

42

See Notice of Appearance [Doc. 9].

43

Compl. ¶¶ 126-87.
7

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

30a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 8 of 28

against Ms. Miller.44 On May 15, 2018, the Court dismissed the remaining
state law claims against Ms. Miller, and dismissed Mr. Everett from the case
for failure to state a claim against any party. 45 The remaining Defendants
have moved for summary judgment.
II.
Summary

judgment

Legal Standard
is

appropriate

only

when

the

pleadings,

depositions, and affidavits submitted by the parties show no genuine issue of
material fact exists and that the movant is entitled to judgment as a matter of
law. 46 The court should view the evidence and any inferences that may be
drawn in the light most favorable to the nonmovant. 47 The party seeking
summary judgment must first identify grounds that show the absence of a
genuine issue of material fact.48 The burden then shifts to the nonmovant, who
must go beyond the pleadings and present affirmative evidence to show that a
genuine issue of material fact exists.49

44

First Dismissal Order, at 8 [Doc. 20].

45

Second Dismissal Order, at 9 [Doc. 37].

46

Fed. R. Civ. P. 56(c).

47

Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59 (1970).

48

Celotex Corp. V. Catrett, 477 U.S. 317, 323-24 (1986).

49

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257 (1986).
8

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

31a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 9 of 28

III.

Discussion

The Plaintiff brings claims under § 1983 for violations of her First and
Fourth Amendment rights. The Plaintiff also brings analogous claims for false
arrest, false imprisonment, and malicious prosecution under state law. The
Court will begin with the federal claims.
A. Federal Claims
The Plaintiff alleges that her First Amendment rights were violated
when Defendant Hopkins sought her arrest under Georgia’s “harassing
communications” statute, O.C.G.A. § 16-11-39.1, in retaliation for the use of
protected speech. The Plaintiff further alleges that her Fourth Amendment
rights were violated when she was extradited from Alabama based on a
warrant that, according to the Plaintiff, was issued without probable cause.
The Plaintiff argues that Defendant Cobb County can be held liable for
Defendant Hopkins’ conduct because he purportedly acted pursuant to a
county-wide policy of arresting individuals merely for using expletives. 50

The Plaintiff’s Complaint also references a § 1983 claim for
violations of the Plaintiff’s Tenth Amendment rights. Compl. ¶ 7. The
Complaint does not, however, provide a “short and plain statement of the
claim” as required by Federal Rule of Civil Procedure 8(a)(2) or identify any
facts giving rise to a Tenth Amendment violation. The Plaintiff suggests in her
response brief that the circumstances giving rise to the Fourth Amendment
violation might also give rise to a Tenth Amendment violation, but does not
explain how or why this is the case. Therefore, insofar as the Plaintiff intended
to pursue this claim, summary judgment should be entered in the Defendants’
favor because the Plaintiff has failed to state a claim on which relief could be
granted and because the Plaintiff has abandoned the claim at summary
judgment. See Fischer v. Fed. Bureau of Prisons, 349 F. App'x 372, 375 (11th
9
50

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

32a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 10 of 28

Defendant Hopkins argues that he is entitled to qualified immunity on the §
1983 claims brought against him in his individual capacity. Defendant Cobb
County argues that the Plaintiff has failed to show the existence of any
unconstitutional policy, custom, or practice that could plausibly give rise to
municipal liability, warranting dismissal of the § 1983 claims brought against
it and against Defendant Hopkins in his official capacity.
1. Whether Defendant Hopkins is Entitled to Qualified
Immunity
The doctrine of qualified immunity protects law enforcement officers
from suit under § 1983 when certain conditions apply.51 In order to assert the
defense of qualified immunity, the officer must first show that he committed
the allegedly wrongful acts within the scope of his discretionary authority.52

Cir. 2009) (“We note that Fischer has waived any claim related to the blood
clotting in his leg because he did not address that issue in response to Dr.
Tidwell's motion for summary judgment.”); see also Crayton v. Valued Servs.
of Alabama, LLC, 737 F. Supp. 2d 1320, 1331 (M.D. Ala. 2010) (“[T]he Court
finds that Plaintiff has abandoned her non-termination retaliation claims due
to her failure to address Defendant's arguments respecting these claims or
otherwise provide support for them in her response to the motion for summary
judgment.”). Furthermore, although the Court need not and does not reach the
issue, the Court is not convinced that the Tenth Amendment is a source of
individual rights at all. See Stone v. City of Prescott, 173 F.3d 1172, 1175 (9th
Cir. 1999) (“[I]t is the power of the federal government which is constrained by
the Tenth Amendment, not the power of the States. Plaintiffs cannot found a
section 1983 claim on the Tenth Amendment because it is neither a source of
federal authority nor a fount of individual constitutional rights.”).
51

Anderson v. Creighton, 483 U.S. 635, 638 (1987); Pearson v.

Callahan, 555 U.S. 223, 231 (2009).
52

Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002).
10

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

33a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 11 of 28
The burden then shifts to the Plaintiff to show (1) that the officer’s conduct
violated a constitutional right and (2) that the right was clearly established.53
In order for a constitutional right to be clearly established, the law must have
been developed in “a concrete and factually defined context” such that a
reasonable government official in the Defendant’s place would understand that
his conduct violated federal law.54 Whether a constitutional right is clearly
established is a question of law for the court to decide.55
There can be no doubt that Defendant Hopkins was acting within the
scope of his discretionary authority as a police detective when he investigated
the case, secured a warrant for the Plaintiff’s arrest, and recommended to the
Cobb County Sheriff’s Office that the Plaintiff be extradited from Alabama.
The question therefore becomes whether the facts viewed in the light most
favorable to the Plaintiff show that Defendant Hopkins violated the Plaintiff’s
clearly established rights under the First or Fourth Amendments.
a. First Amendment Claim
To establish that Defendant Hopkins unlawfully retaliated against the Plaintiff
for exercising her First Amendment rights, the Plaintiff must show

53

Id.

Jackson v. Sauls, 206 F.3d 1156, 1164 (11th Cir. 2000) (quoting
Lassiter v. Alabama A & M Univ. Bd. of Trustees, 28 F.3d 1146, 1149 (11th
54

Cir. 1994)).
55

Simmons v. Bradshaw, 879 F.3d 1157, 1163 (11th Cir. 2018).
11

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

34a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 12 of 28

“first, that [her] speech or act was constitutionally protected; second, that
[Defendant Hopkins’] retaliatory conduct adversely affected the protected
speech; and third, that there is a causal connection between the retaliatory
actions and the adverse effect on speech.”56 The Plaintiff’s argument fails at
the first prong of the analysis. The Plaintiff contends that the content of her
emails constituted protected speech. In these emails, however, the Plaintiff: (1)
demanded an apology using threatening language; 57 (2) stated that she
planned to visit Ms. Miller’s place of work because she “need[ed] to see [her]
cry”; 58 (3) repeatedly described the alleged sexual encounter between Ms.
Miller and Mr. Everett in detail and told Ms. Miller that she ought to have sex
with Mr. Everett again;59 (4) threatened to upend Ms. Miller’s personal and

Bennett v. Hendrix, 423 F.3d 1247, 1250 (11th Cir. 2005). The
Plaintiff’s Complaint contains two counts that are styled as “First
Amendment” claims, with only one of them explicitly styled as a “retaliation”
claim. After review of both counts, however, the Court concludes that the only
cognizable First Amendment claim that the Plaintiff has raised is one for
retaliation. In any event, because the Court concludes that the Plaintiff’s
speech was not constitutionally protected, any claim based on the First
Amendment necessarily fails.
56

Ex. 3 to Amy Everett Dep., at 71 (“I had better get that sincere
detailed fucking apology that I deserve from that cunt bitch, and it better be
prompt… I don’t have forgiveness and I certainly don’t have any fucking
patience for this shit, so that cunt better get this rolling.”).
57

58

Id., at 76 (“I need to see you cry. I think I’ll come to Harrison for

a visit this week. Poor Lani doesn’t wanna [sic] be contacted. Fuck you cunt.”).

Id., at 76 (“Call your lover [phone number]. He misses you. Maybe
you can invite him over and fuck on the kitchen counter again.”); id., at 79 (“Yes
59

I fucked her. On your kitchen counter. On your sofa. I came in her. didn't [sic]
use a rubber.”).
12
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

35a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 13 of 28

professional life if she did not “confess” to the affair;60 and (5) followed through
on that threat. 61 Communications intended to harass and frighten the
recipient are not protected speech. 62 Nor are communications that are
obscene.63 Because the Plaintiff’s speech was not constitutionally protected, it
necessarily follows that Defendant Hopkins did not violate her First
Amendment rights by seeking her arrest pursuant to O.C.G.A. § 16-11-39.1.64

Ex. 5 to Amy Everett Dep., at 94 [Doc. 68-1] (transmitting link to
website outing adulterers); id., at 95 (asking Ms. Miller whether her principal
and her family “know you are a whore?”); id., at 97 (threatening to tell Ms.
Miller’s minor son “about what a whore his mom is” and claiming that it is
“[g]onna [sic] be a long time before this shit ends you slut”).
60

Ex. 3 to Amy Everett Dep., at 78 (describing the affair to Ms.
Miller’s co-workers); id., at 80 (same); Ex. 5 to Amy Everett Dep., at 100 (posing
as Ms. Miller and “confessing” the affair to Ms. Miller’s mother).
61

United States v. Eckhardt, 466 F.3d 938, 944 (11th Cir. 2006)
(citing United States v. Bowker, 372 F.3d 365, 380 (6th Cir. 2004), vacated on
other grounds, 543 U.S. 1182 (2005)).
62

63

Id. (citing Roth v. United States, 354 U.S. 476, 485 (1957)

(“[O]bscenity is not within the area of constitutionally protected speech.”)).

Count II of the Complaint appears to suggest that the Plaintiff’s
speech was constitutionally protected because her communications were
directed at a teacher employed by the County. See Compl. ¶ 156 (“Defendant
Hopkins actively initiated and procured the extradition for arrest and
prosecution of Mrs. Everett in a criminal action in retaliation for her vocal
protest and criticism of a County teacher’s extramarital affair.”) (emphasis
added). If by this the Plaintiff means to argue that otherwise unprotected
speech becomes protected when directed at a state employee, no such
categorical rule exists in the Eleventh Circuit. If instead the Plaintiff means to
argue that the details of a past affair between two public school teachers are a
matter of public or political concern, the Court finds the suggestion risible. In
any event, the Plaintiff does not develop this line of argument further at
summary judgment, and the Court sees no reason to alter its analysis based
on Ms. Miller’s vocation.
64

13
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

36a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 14 of 28

Even if the Plaintiff’s speech was protected under the First Amendment, the
Plaintiff has not met her burden of proving that her speech was protected
under clearly-established law. Defendant Hopkins is entitled to qualified
immunity on the Plaintiff’s First Amendment claim.
b. Fourth Amendment Claim
The Plaintiff argues that Defendant Hopkins violated her Fourth
Amendment rights by causing her to be arrested without probable cause. The
Plaintiff styles her claim as one for false arrest and imprisonment. But,
because the Plaintiff was arrested pursuant to a warrant and an extradition
request, her claim is properly one for malicious prosecution.65 “To establish a
§ 1983 malicious prosecution claim, the plaintiff must prove two things: (1) the
elements of the common law tort of malicious prosecution; and (2) a violation
of [her] Fourth Amendment right to be free from unreasonable seizures.”66 The
elements of the common law tort of malicious prosecution are: “(1) a criminal
prosecution instituted or continued by the present defendant; (2) with malice

65

See Whiting v. Traylor, 85 F.3d 581, 585 (11th Cir. 1996) (“Here,

Whiting says that Defendants applied for and obtained an arrest warrant
and—based on the warrant—caused him to be unreasonably ‘seized’ in 1988.
He says also he was unlawfully arrested in February 1989. Obtaining an arrest
warrant is one of the initial steps of a criminal prosecution. Under these
circumstances (that is, where seizures are pursuant to legal process), we agree
with those circuits that say the common law tort ‘most closely analogous’ to
this situation is that of malicious prosecution.”).

Grider v. City of Auburn, Ala., 618 F.3d 1240, 1256 (11th Cir.
2010) (citing Kingsland v. City of Miami, 382 F.3d 1220, 1234 (11th Cir. 2004);
Wood v. Kesler, 323 F.3d 872, 881 (11th Cir. 2003)).
66

14
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

37a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 15 of 28

and without probable cause; (3) that terminated in the plaintiff accused's favor;
and (4) caused damage to the plaintiff accused.”67 A police officer can be liable
for malicious prosecution if he knew or should have known that his application
for an arrest warrant “failed to establish probable cause or if he made
statements or omissions in his application that were material and perjurious
or recklessly false.”68
The Plaintiff first argues that Detective Hopkins should have known
that his warrant application lacked probable cause because the Plaintiff’s
contacts with Ms. Miller were not punishable under the harassing
communications statute. 69 The statute criminalizes contacts with another
person “for the purpose of harassing, molesting, threatening, or intimidating
such person or the family of such person[.]”

70

The statute exempts

“constitutionally protected speech” from its list of proscribed acts.71 An officer
reviewing the emails sent to Ms. Miller could reasonably conclude that the
communications were sent with the intent to “harass[], molest[], threaten[], or

67

Id. (quoting Wood, 323 F.3d at 882).

Williams v. Scott, 682 F. App'x 865, 867 (11th Cir. 2017) (quoting
Black v. Wigington, 811 F.3d 1259, 1267 (11th Cir. 2016)).
68

The Plaintiff concedes that Defendant Hopkins believed that
probable cause existed at the time that he applied for an arrest warrant. See
Pl.’s Resp. to Defs.’ Statement of Material Facts ¶ 94.
69

70

O.C.G.A. § 16-11-39.1(a)(1).

71

Id. § 16-11-39.1(e).
15

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

38a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 16 of 28

intimidat[e]” Ms. Miller and members of her family. And, for reasons that the
Court has already discussed, an officer could also reasonably conclude that
these communications were not “constitutionally protected speech.” The
Plaintiff presents no plausible argument to the contrary, and the Court will
not deny qualified immunity on the grounds urged by the Plaintiff.
The Plaintiff next argues that the circumstances surrounding her
extradition gave rise to a Fourth Amendment violation. As best as the Court
can determine, the Plaintiff’s argument proceeds as follows: Under Georgia
law, the Plaintiff’s “conduct” of sending the allegedly harassing emails
occurred in Alabama. Because the Plaintiff’s allegedly unlawful conduct
occurred in Alabama, Defendant Hopkins lacked authority to seek the
Plaintiff’s arrest under Georgia’s harassing communications statute absent an
express extraterritorial jurisdiction clause. Because Defendant Hopkins lacked
authority to seek the Plaintiff’s arrest, the warrant application was not
supported by probable cause. Because the warrant application was not
supported by probable cause, the resulting extradition gave rise to a Fourth
Amendment violation.
The Plaintiff fundamentally misunderstands the circumstances under
which Georgia criminal law can be applied extraterritorially. The Plaintiff is
correct that, under Georgia law, the “conduct” of sending a harassing or
threatening communication occurs at the place where the communication

16
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

39a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 17 of 28

originates, not where it is received.72 The Plaintiff argues that Georgia cannot
punish out-of-state defendants under the harassing communications statute,
because, as a general rule, criminal laws “have no force of themselves beyond
the jurisdiction of the state which enacts them.”73 It is unclear whether the
Plaintiff believes that an express extraterritorial jurisdiction provision would
fix the problem, or whether the Plaintiff believes that no criminal statute can
ever be applied extraterritorially without running afoul of the U.S.
Constitution. In either case, the Plaintiff is incorrect.
It has been well-settled law for over a century that “[a]cts done outside
a jurisdiction, but intended to produce and producing detrimental effects
within it, justify a state in punishing the cause of the harm as if he had been
present at the effect, if the state should succeed in getting him within its

72

Anderson v. Deas, 279 Ga. App. 892, 893-94 (Ga. Ct. App. 2006)

(holding that the conduct of placing a harassing phone call occurs at the place
that the call is made); Huggins v. Boyd, 304 Ga. App. 563, 565-66 (2010)
(holding that the conduct of sending a harassing email occurs at the place from
which the email is sent) (citing Anderson); see also LABMD, Inc. v. Tiversa,
Inc., 509 F. App'x 842, 844 (11th Cir. 2013) (“For purposes of personal
jurisdiction under Georgia's long-arm statute, Georgia courts have ruled
that—when a defendant uses the telephone or email to contact a Georgia
resident—defendant's conduct occurs at the place where defendant speaks into
the telephone or types and sends his email.”) (citing Anderson).

Huntington v. Attrill, 146 U.S. 657, 669 (1892); see also
Manchester v. Massachusetts, 139 U.S. 240, 263 (1891) (“The jurisdiction of a
73

state is co-extensive with its territory; co-extensive with its legislative power.”)
(quoting United States v. Bevans, 16 U.S. 336, 387 (1818) (Marshall, C.J.));
Grimes v. Greer, 223 Ga. 628 (1967) (“Generally, penal laws have no
extraterritorial effect.”)).
17
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

40a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 18 of 28

power.”74 Georgia’s criminal jurisdiction statute asserts that “[i]t is the policy
of this state to exercise its jurisdiction over crime and persons charged with
the commission of crime to the fullest extent allowable under, and consistent
with, the Constitution of this state and the Constitution of the United
States.”75 Thus, the question of whether Georgia’s harassing communications
statute can be applied extraterritorially does not, as the Plaintiff suggests,
turn on whether the statute itself contains a jurisdictional provision. Rather,
the question is whether some element of the crime, either the conduct element

or the result element, occurred within Georgia.76
Strassheim v. Daily, 221 U.S. 280, 285 (1911) (citing Simpson v.
State, 92 Ga. 41 (1893) (Holding that it is “beyond question that a criminal act
74

begun in one state and completed in another renders the person who does the
act liable to indictment in the latter.”)).
75

O.C.G.A. § 17-2-1(a).

The Defendants argue that section (c) of the harassing
communications statute permits its extraterritorial application. Section (c)
states that “[t]he offense of harassing communications shall be considered to
have been committed in the county where: (1) [t]he defendant was located
when he or she placed the telephone call or transmitted, sent, or posted an
electronic communication; or (2) [t]he telephone call or electronic
communication was received.” O.C.G.A. § 16-11-39.1(c). The Defendants’
reliance on this statutory language is misplaced. This language was added to
the statute in 2015 after passage of Senate Bill 72, which updated Georgia’s
“harassing phone calls” statute and extended its reach to all forms of telephonic
and electronic communication. S.B. 72, 153d Gen. Assemb., Reg. Sess. (Ga.
2015). The caption of Senate Bill 72 makes clear that the language regarding
the site of the crime was added “to provide for venue” in the appropriate county.
Id. Venue might well have been appropriate in the county where Ms. Miller
received the Plaintiff’s emails. But the state must assert some independent
basis for criminal jurisdiction. See Lindahl v. Office of Pers. Mgmt., 470 U.S.
768, 793 n.30 (1985) (“Venue provisions come into play only after jurisdiction
has been established and concern ‘the place where judicial authority may be
18
76

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

41a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 19 of 28

As set forth in the harassing communications statute, a person commits
the crime of harassing communications when he or she “[c]ontacts another
person repeatedly via telecommunication, e-mail, text messaging, or any other
form of electronic communication for the purpose of harassing, molesting,
threatening, or intimidating such person or the family of such person[.]”77 The
Court is unable to locate any Eleventh Circuit or Georgia case law analyzing
the elements of the crime or the extraterritorial reach of the statute.78 But a

exercised’; rather than relating to the power of a court, venue ‘relates to the
convenience of litigants and as such is subject to their disposition.’”).
77

O.C.G.A. § 16-11-39.1.

The Plaintiff argues that the reach of the harassing
communications statute was settled by the Georgia Court of Appeals rulings
in Anderson and Huggins. It was not. In Anderson and Huggins, the plaintiffs
petitioned for protective orders against out-of-state defendants accused of
domestic violence and stalking, respectively. 273 Ga. App. at 770; 304 Ga. App.
at 563. The code sections governing such petitions authorize Georgia courts to
exercise personal jurisdiction over out-of-state defendants to the extent
permitted by Georgia’s long-arm statute, O.C.G.A. § 9-10-11. See O.C.G.A. §
19-13-2(b) (“For proceedings under this article involving a nonresident
respondent, the superior court where the petitioner resides or the superior
court where an act involving family violence allegedly occurred shall have
jurisdiction, where the act involving family violence meets the elements for
personal jurisdiction provided for under paragraph (2) or (3) of Code Section 910-91.”); O.C.G.A. § 16-5-94(a)-(b) (“A person who is not a minor who alleges
stalking by another person may seek a restraining order by filing a petition
alleging conduct constituting stalking as defined in Code Section 16-5-90. A
person who is not a minor may also seek relief on behalf of a minor by filing
such a petition… Jurisdiction for such a petition shall be the same as for family
violence petitions as set out in Code Section 19-13-2.”). The Georgia Court of
Appeals held in both cases that, because the conduct of sending a harassing
communication occurs at the place where it is sent, the defendants had not
engaged in a “persistent course of conduct… in this state” for the purposes of
Paragraph (3) of Georgia’s long-arm statute. Anderson, 279 Ga. App. at 893-94
(“We, therefore, conclude that Deas did not engage in any conduct, persistent
19
78

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

42a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 20 of 28

common-sense reading of the statute suggests that the crime is not complete
until the harassing communication is received. The word “contact” necessarily
implies that a person is, in fact, contacted. An attempted but failed contact
would not be punishable under the plain language of the statute. The Court
concludes that a necessary result of the crime of harassing communications is
that the target, or the family of the target, actually receives the
communication. Georgia’s criminal jurisdiction statute, consistent with the
bounds set by the U.S. Supreme Court, permits extraterritorial application of
its criminal laws when the result element of the crime occurs within its
borders. Therefore, Defendant Hopkins did not make a mistake as to
jurisdiction in seeking the Plaintiff’s arrest, and, by extension, could not have
violated the Plaintiff’s constitutional rights by seeking her arrest in Alabama.
Defendant Hopkins is therefore entitled to qualified immunity on the
Plaintiff’s Fourth Amendment claim.79

or otherwise, in Georgia, either when he made his daily phone calls to speak to
his daughter or when he made the calls that allegedly threatened and harassed
Anderson.”); Huggins, 304 Ga. App. at 566 (citing Anderson). As the Court has
already explained, Georgia’s jurisdiction over criminal defendants is governed
by its criminal jurisdiction statute, not the long-arm statute. Whereas the longarm statute allows for personal jurisdiction when tortfeasors engage in a
persistent course of conduct within Georgia, the criminal jurisdiction statute
allows Georgia courts to exercise jurisdiction over crimes and criminal
defendants when the conduct or the result of the crime occurs within Georgia.
Compare O.C.G.A. § 9-10-11 with O.C.G.A. § 17-2-1.
In her response brief, the Plaintiff for the first time suggests that
her extradition violated the dormant Commerce Clause. See Pl.’s Resp. to Defs.’
Mot. for Summ. J., at 20-21 [Doc. 73]. Suits for violations of the dormant
20
79

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

43a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 21 of 28

Even if the Court were to assume arguendo that Georgia’s harassing
communications statute cannot be applied extraterritorially, it does not follow
that Defendant Hopkins’ conduct violated the Plaintiff’s clearly established
constitutional rights. The Plaintiff does not cite any relevant authority
establishing that extradition based on a jurisdictionally defective warrant is
an unreasonable seizure under the Fourth Amendment. To the contrary,
clearly established precedent runs counter to the Plaintiff’s position. Multiple
Circuits, including the Eleventh, have held that arrests made outside of the
arresting officer’s jurisdiction at most violate state or federal jurisdictional
statutes and do not give rise to a Fourth Amendment violation if the officer
reasonably believed that the arrest was supported by probable cause.80 The

Commerce Clause can be brought under § 1983. Dennis v. Higgins, 498 U.S.
439, 451 (1991). But the Plaintiff “may not amend her complaint through
argument in a brief opposing summary judgment.” Gilmour v. Gates,
McDonald & Co., 382 F.3d 1312, 1315 (11th Cir. 2004). In any event, the
Plaintiff does not explain how the Defendants interfered with her right to
engage in interstate commerce.

See United States v. Goings, 573 F.3d 1141, 1143 (11th Cir. 2009)
(“[I]t was irrelevant for purposes of the Fourth Amendment whether Goings's
arrest violated state law, so long as it was supported by probable cause.”)
(citing Virginia v. Moore, 553 U.S. 164, 166 (2008)); see also United States v.
Ryan, 731 F.3d 66, 70 (1st Cir. 2013) (“[A]n extraterritorial arrest is not a per
se violation of the Fourth Amendment.”) (citing Moore); United States v. Sed,
601 F.3d 224, 228 (3d Cir. 2010) (“In light of Moore, Sed is plainly wrong when
he argues that his arrest in violation of Ohio law renders the conduct of the
[Pennsylvania] State Police unreasonable per se under the Fourth
Amendment.”); Pasiewicz v. Lake Cty. Forest Pres. Dist., 270 F.3d 520, 526
(7th Cir. 2001) (“The federal government is not the enforcer of state law”)
(citation omitted). In Engleman v. Deputy Murray, the Eighth Circuit
suggested in dicta that even an officer with objectively unreasonable beliefs
21
80

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

44a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 22 of 28

Plaintiff has not cited any precedent showing that her clearly established
Fourth Amendment rights were violated, and Defendant Hopkins is therefore
entitled to qualified immunity even if he, the Cobb County Sheriff’s Office, the
Cobb County Solicitor’s Office, and this Court are wrong that the harassing
communications statute can be applied extraterritorially.81
Because the Court has concluded that the Plaintiff cannot show that
Defendant Hopkins lacked probable cause or that the Plaintiff’s Fourth
Amendment right to be free of unreasonable seizures was violated, the Court
offers no opinion on whether the remaining elements of the common law tort
of malicious prosecution are met in this case. In particular, the Court does not
address the question of whether entry of the nolle prosequi in the Plaintiff’s
underlying criminal case resolved the case in her favor.82

regarding his jurisdiction would not violate the Fourth Amendment by
arresting a suspect in a neighboring state. 546 F.3d 944, 951 n.5 (8th Cir.
2008).
In the Eleventh Circuit, evidence that a police officer’s
supervisors and state prosecutors believed that probable cause existed is
strong evidence that the police officer lacked the requisite malice to be liable
for malicious prosecution. Williams v. Scott, 682 F. App'x 865, 867 (11th Cir.
2017). While Defendant Hopkins does not appear to have consulted with his
supervisors prior to applying for the warrant, both the Sheriff’s Office and the
Solicitor’s Office had to sign off on the extradition request before it issued.
Defs.’ Statement of Material Facts ¶¶ 136-42. The Plaintiff asserts that these
entities’ review of the extradition request was cursory. But, in the Court’s view,
the mere fact that the Sheriff’s Office and the Solicitor’s Office signed off on
the request is strong evidence that Defendant Hopkins did not act with malice
in seeking the Plaintiff’s arrest and extradition.
81

82

The parties dispute whether the Plaintiff admitted guilt as a
22

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

45a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 23 of 28

46a
2. Whether Defendant Cobb County and Defendant Hopkins in
his official capacity are liable under § 1983
Municipalities are not vicariously liable for the constitutional violations
of its police officers under § 1983. 83 Instead, a plaintiff seeking to hold a
municipality liable under § 1983 must show that a municipal policy, custom,
or practice caused the constitutional deprivation.84 The Plaintiff claims that
she was extradited pursuant to the Defendant’s policy of arresting individuals
merely for using expletives.85 The Plaintiff’s § 1983 claims against Defendant
Cobb County necessarily fail because there is no underlying constitutional
violation. 86 The Plaintiff’s claims against Defendant Hopkins in his official
capacity fail because they are duplicative of the claims brought against
Defendant Cobb County itself.87 Therefore, summary judgment is warranted

condition of the nolle prosequi being entered. See supra note 37.

Hoefling v. City of Miami, 811 F.3d 1271, 1279 (11th Cir.
2016)(citing Monell v. Dep't of Social Servs., 436 U.S. 658, 693–94 (1978)).
83

Id. (citing City of Canton v. Harris, 489 U.S. 378 (1989); Weiland
v. Palm Beach County Sheriff's Office, 792 F.3d 1313, 1328 (11th Cir. 2015);
McDowell v. Brown, 392 F.3d 1283, 1289 (11th Cir. 2004)).
84

85

Compl. ¶¶ 161, 168.

86

Beshers v. Harrison, 495 F.3d 1260, 1264 n.7 (11th Cir. 2007)

(“We need not address the Appellant’s claims of municipal or supervisory
liability since we conclude no constitutional violation occurred.”); Vineyard v.
Cty. of Murray, Ga., 990 F.2d 1207, 1211 (11th Cir. 1993) (“Only when it is
clear that a violation of specific rights has occurred can the question of § 1983
municipal liability for the injury arise.”).
For the purposes of § 1983, suits against municipal officers are in
fact suits against the municipal entity itself. Brandon v. Holt, 469 U.S. 464,
471 (1985). When a municipal entity is a party to a § 1983 suit, claims against
23
87

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 24 of 28

as to all § 1983 claims brought against Defendant Cobb County and against
Defendant Hopkins in his official capacity.
The Court further notes that the Plaintiff has not introduced a scintilla
of evidence at summary judgment to substantiate her initial allegation that
Defendant Cobb County has a policy of “arresting individuals… in retaliation
for the use of profanity.”88 In her response brief, the Plaintiff instead argues
that Defendant Cobb County has failed to train its police officers on what
constitutes protected speech.

89

In the Court’s view, the Plaintiff is

impermissibly attempting to amend her Complaint by offering this shifting
rationale for Defendant Cobb County’s liability in her response brief.90 In any
event, “[a] municipality’s culpability for a deprivation of rights is at its most
tenuous where a claim turns on a failure to train,”91 and “[a] pattern of similar
constitutional violations by untrained employees is ‘ordinarily necessary’ to
demonstrate deliberate indifference for purposes of failure to train.” 92 The
its agents in their official capacities are due to be dismissed. Cf. Bell v. Houston
Cty., Ga., No. 5:04-CV-390 (DF), 2006 WL 1804582, at *12 (M.D. Ga. June 27,
2006); Summers v. City of Dothan, Ala., No. 1:08CV-78MEF, 2009 WL 230128,
at *1 (M.D. Ala. Jan. 30, 2009).
88

Compl. ¶ 161.

Pl.’s Resp. to Defs.’ Mot. for Summ. J., at 10 (“Essentially, the
department has an obvious need to train about the application of the First
Amendment, to protect speech that does not involve a true threat[.]”).
89

90

See Dennis, 498 U.S. at 451.

91

Connick v. Thompson, 563 U.S. 51, 61 (2011).

92

Id., at 62.
24

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

47a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 25 of 28
Plaintiff has not substantiated any such pattern of similar constitutional
violations. To the contrary, the only example of a constitutional violation
offered up by the Plaintiff is the Defendants’ handling of her own case. The
Plaintiff cites no precedent to support her argument that the alleged
constitutional violation in this case falls within the “narrow range of
circumstances” that could give rise to single-incident municipal liability. 93
Therefore, even if Defendant Hopkins had deprived the Plaintiff of her
constitutional rights, the Plaintiff has failed to produce evidence from which to
hold Defendant Cobb County liable under Monell and its progeny.
B. State Law Claims
The Plaintiff brings state law claims of false arrest, false imprisonment, and
malicious prosecution against Defendant Hopkins. The Plaintiff also brings
a malicious prosecution claim against Defendant Cobb County.
Defendant Hopkins asserts official immunity as a defense to all state law
claims brought against him in his individual capacity. Defendant Cobb County
asserts sovereign immunity as a defense to the malicious prosecution claim.
The Defendants also argue that the Plaintiff’s state law claims fail on the
merits. The Court turns now to Defendant Hopkins’ claim of official immunity.

93

See id., at 63-64.
25

T:\ORDERS\17\EVERETT\MSJTWT.DOCX

48a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 26 of 28

1. Whether Defendant Hopkins is Entitled to Official Immunity
“A suit against a public officer acting in his or her official capacity will
be barred by official immunity unless the public officer (1) negligently
performed a ministerial duty, or (2) acted with actual malice or an actual intent
to cause injury while performing a discretionary duty.” 94 There can be no
reasonable dispute that Defendant Hopkins was acting with discretion when
he investigated the case, submitted a warrant application to the magistrate
judge, and recommended to his superiors that the Plaintiff be extradited from
Alabama.95 Thus, in order to overcome Defendant Hopkins’ claim of official
immunity, the Plaintiff would need to show that Defendant Hopkins acted with
actual malice or with the intent to cause the Plaintiff harm. “In the context of
official immunity, actual malice requires a deliberate intention to do wrong
and denotes express malice or malice in fact.”96 The Plaintiff has not presented
a scintilla of evidence showing that Defendant Hopkins acted with actual
malice or the intent to cause injury. Indeed, the Plaintiff has conceded that

94

Tant v. Purdue, 278 Ga. App. 666, 668 (2006) (quoting Wanless

v. Tatum, 244 Ga. App. 882, 536 S.E.2d 308 (2000)).
95

Id. (“[W]e conclude that Officer Purdue was performing a

discretionary act when he concluded from his investigation that Tant had been
driving recklessly and under the influence and when he signed the arrest
warrant application to that effect.”).

Peterson v. Baker, 504 F.3d 1331, 1339 (11th Cir. 2007) (quoting
Adams v. Hazelwood, 271 Ga. 414, 415 (1999)) (internal quotation marks
96

omitted).

26
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

49a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 27 of 28

Defendant Hopkins genuinely believed that he had probable cause to arrest
the Plaintiff.97 Absent any evidence of actual malice, Defendant Hopkins is
entitled to official immunity on all state law claims brought against him in his
individual capacity.
2. Whether Defendant Cobb County is Entitled to Sovereign
Immunity
Under Georgia law, the doctrine of sovereign immunity protects state
and local government entities from legal action unless immunity has been
specifically waived by the General Assembly.98 The Court is not aware of, and
the Plaintiff does not identify, any express waiver of sovereign immunity that
would apply to the Plaintiff’s state law claims. Therefore, Defendant Cobb
County is entitled to sovereign immunity.99
The state law claims against Defendant Hopkins in his official capacity
are also due to be dismissed because “any cause of action averred against a
municipal police officer in his official, as opposed to his personal/individual,
capacity is in reality suit against the municipality.”100 Defendant Hopkins is,

97

See Pl.’s Resp. to Defs.’ Statement of Material Facts ¶ 94.

98

Gilbert v. Richardson, 264 Ga. 744, 745 (1994) (citing Ga. Const.

of 1983, Art. I, Sec. II, Par. IX).

Cf. City of Atlanta v. Heard, 252 Ga. App. 179, 181 (2001)
(municipal defendant protected by sovereign immunity from the plaintiff’s
defamation, false arrest, and malicious prosecution claims).
99

Conley v. Dawson, 257 Ga. App. 665, 667 (2002) (quoting Pearson
v. City of Atlanta, 231 Ga. App. 96, 101(5) (1998)) (punctuation omitted).
100

27
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

50a

Case 1:17-cv-03392-TWT Document 85 Filed 07/29/19 Page 28 of 28

therefore, also entitled to sovereign immunity on the Plaintiff’s state law
claims brought against him in his official capacity.
Because the Court has concluded that Defendant Hopkins and
Defendant Cobb County are immune from suit, it need not reach the merits of
the Plaintiff’s claims. The Court notes, however, that the record evidence
cannot plausibly establish that Defendant Hopkins lacked probable cause or
acted with malice. Failure to establish these elements would be fatal to the
Plaintiff’s state law claims even if the Plaintiff could overcome the Defendants’
immunity defenses.
IV.

Conclusion

For the reasons stated above, the Defendants’ Motion for Summary
Judgment [Doc. 65] is GRANTED.
SO ORDERED, this 26 day of July, 2019.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

28
T:\ORDERS\17\EVERETT\MSJTWT.DOCX

51a

..

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 1 of 53

52a

FILEDINCL

'

U,B,f),l'!tD,fFICE
SEP 06
-:J

1

IN THE UNITED STATES DISTRICT COURT
')n
NORTHERN DISTRICT OF GEORGIA
J~
~.,17 .;:1
ATLANTA DIVISION
8Y:~'l
AMYEVERETTandTJELVAR
EVERETT,
Plaintiffs,

)
)
)
)
)

v.
; File No.
COBB COUNTY, GEORGIA;
OFFICER JAMES W. HOPKINS,
in his individual and official
capacities; and LANI MESHELLA
MILLER, in her individual
capacity;
Defendants.

)
)
)
)
)
)
)
)

'fJUtyci~

1 : 17 -CY-3392
••

COMPLAINT
Plaintiffs Amy Everett (hereinafter "Mrs. Everett") and Tjelvar
Everett (hereinafter "Mr. Everett") hereby bring this Complaint seeking
damages and declaratory and injunctive relief for the violations of their
First, Fourth, Tenth, and Fourteenth Amendment rights under the
United States Constitution and corollary rights under the Georgia
Constitution, and shows as follow:

1

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 2 of 53

53a

PARTIES. JURISDICTION. AND VENUE
1.

At all times relevant to this Complaint, Mrs. Everett was a

citizen of the State of Alabama, resided in Hoover, Alabama, and had no
physical presence in the State of Georgia.
2.

At all times relevant to this Complaint, Mr. Everett was a

citizen of the State of Alabama, resided in Hoover, Alabama, and had no
physical presence in the State of Georgia.
3.

Defendant Cobb County is a political subdivision of the State

of Georgia that can sue and be sued, residing within the Atlanta
Division of the Northern District of Georgia, and is subject to the
jurisdiction and venue of this Court. Pursuant to Federal Rule of Civil
Procedure 5(b)(1), Service of Process may be effected upon the County
Attorney. If Defendant Cobb County does not acknowledge serVIce,
service may be perfected as allowed by law.
4.

Defendant Officer James W. Hopkins ("Defendant Hopkins")

was at all times herein mentioned employed by the Cobb County Police
Department. In that capacity, he was acting under color of state law
during the relevant acts and omissions alleged herein. He is being sued
herein in his individual capacity and in his official capacity. If

2

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 3 of 53

54a

Defendant Hopkins does not acknowledge serVIce, servIce may be
perfected as allowed by law.
5.

Defendant Lani Meshella Miller ("Defendant Miller") was at

all times herein mentioned a resident of the State of Georgia. She is
being sued herein in her individual capacity as a private citizen who,
through her actions, conspired with co-Defendants to deprive Plaintiffs
Everett of their constitutionally protected civil rights. If Defendant
Miller does not acknowledge service, service may be perfected as
allowed by law.
6.

This action arises under the authority vested in this Court

by virtue of 42 U.S.C. § 1983, 42 U.S.C. § 1985, 28 U.S.C. § 1331, 28
U.S.C. § 1343, and 28 U.S.C. § 1367.
7.

This Court has jurisdiction under 28 U.S.C §§ 1331 and 1343

because this case arises under 42 U.S.C.§ 1983 and the First, Fourth,
Tenth, and Fourteenth Amendments to the United States Constitution.
Pursuant to 28 U.S.C. §1343 (a)(1) and (3), this action is brought to
redress injuries to Mr. Everett and Mrs. Everett's person and property
and the deprivation, under color of Georgia law, statutes, ordinances,
regulations, customs or usages of rights, privileges and/or immunities

3

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 4 of 53

55a

secured by the Constitution of the United States, and/or by any Act of
Congress providing for equal rights of citizens or of all persons within
the jurisdiction of the United States. The Court has supplemental
jurisdiction over Mr. Everett and Mrs. Everett's state-law claims under
28 U.S.C. § 1367.
8.

Venue is proper in this District under 28 U.S.C. § 1391(b)(2)

because a substantial part of the events or omissions giving rise to
these claims occurred in Cobb County, Georgia, which is within the
Northern District of Georgia.

FACTUAL ALLEGATIONS
9.

On January 1, 2015, Mr. Everett revealed to Mrs. Everett

that he had engaged in an extramarital affair with Defendant Miller
over the 2006-07 and 2007-08 school years.
10.

At the time of the affair, Plaintiffs Everett and Defendant

Miller were teachers at the same school- Hiram High School in Hiram,
Georgia.
11.

At the time of the affair, Plaintiffs Everett were married and

had an infant son.

4

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 5 of 53

56a

12.

At the time of the affair, Defendant Miller was married to

her current husband, Clay Miller ("Mr. Miller").
13.

Defendant Miller and Mr. Everett taught In the SCIence

department at Hiram High School.
14.

Mrs. Everett taught in the English department at Hiram

High School.
15.

Mr. Miller did not work at Hiram High School.

16.

Upon Mr. Everett's confession of his extramarital affair,

Mrs. Everett attempted to contact Defendant Miller and Mr. Miller on
January 2, 2015 and January 10, 2015, via Facebook

Messe~ger;

Mrs.

Everett did not receive a response.
17.

On January 13, 2015, Mrs. Everett contacted Defendant

Miller via telephone at her current place of employment, Harrison High
School.
18.

Harrison High School is located in Kennesaw, Georgia and is

part of the Cobb County School District.
19.

The conversation between Mrs. Everett and Defendant

Miller began at 3:25 PM ET and lasted for approximately 36 minutes.
20.

During the aforementioned phone conversation:

5

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 6 of 53

57a

A.

Defendant Miller confirmed that she had engaged in a
months-long extramarital affair with Mr. Everett.

B.

Defendant Miller provided Mrs. Everett with details of
the affair.

C.

Defendant Miller told Mrs. Everett of her battle with
depression and anxiety and that she took medication to
"keep from crying all of the time;" Mrs. Everett had
witnessed Defendant Miller crying while working at
Hiram High School, sometimes in front of other
teachers.

D.

Mrs. Everett then suggested that Defendant Miller seek
further professional help for her emotional problems
before inserting herself into the marriage of the man
working in the classroom next to her own.

E.

Defendant Miller then stated that she does not have a
classroom in the building at Harrison High School and
works in a mobile unit, far away from other teachers.

F.

Based on Defendant Miller's admission that she had
engaged in a sexual affair with Mr. Everett, even while

6

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 7 of 53

58a

working with Mrs. Everett, Mrs. Everett expressed
concerns that Defendant Miller would engage, or had
engaged, in other extramarital affairs with other
married co-workers.
G.

Mrs. Everett stated that Defendant Miller's family and
co-workers should be made aware of her acts.

H.

Defendant Miller then stated explicitly to Mrs. Everett:
"Do what you are going to do, Amy."

21.

Mrs.

Everett later sent electronic communications to

Defendant Miller's mother and cousin, in which Mrs. Everett exposed
Defendant Miller's extramarital affair with Mr. Everett; Mrs. Everett
did not receive a response.
22.

On August 26, 2015, Mrs. Everett contacted several science

department faculty members at Harrison High School, via a multi-party
e-mail.
23.

The e-mail addresses were found on a publicly-accessible

website, and were published for the purpose of soliciting email
communications from members of the public.

7

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 8 of 53

59a

24.

The intent of Mrs. Everett's email was to warn colleagues

from out of state that Defendant Miller had engaged in an extramarital
affair with Mr. Everett while Defendant Miller worked with the
married couple at Hiram High School.
25.

Detective Hopkins' confirmed this Mrs. Everett's purpose

was to warn others about Defendant Miller's history, specifically of the
possibility that other teachers' marriages could be at risk. 1 See: Exhibit

A, Criminal Warrant No. 15-w- 7865
26.

On August 26, 2015, Defendant Hopkins sent an email to

Plaintiffs Everett in which he demanded a cease in all "verbal
communication through telephone, cellular phone, email, text message,
voice mail, social media, and regular mail" from Plaintiffs Everett.
27.

Defendant Hopkins also stated that Plaintiffs Everett were

to "cease any communication with anyone personally or professional
associated with Mr. or Mrs. Miller." See: Exhibit B.
28.

Within his email to Plaintiffs Everett, Defendant Hopkins

provided his contact information and offered to respond to any
lIn Criminal Warrant No. 15-W-7865, Detective Hopkins states that Mrs. Everett
sent emails "warning those individuals that the victim [Defendant Miller] would
potentially have an affair with their husbands as well."

8

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 9 of 53

60a

questions or concerns that Plaintiffs Everett had with regard to his
demand for cease and desist of communications regarding Defendant
Miller, her family, andlor Defendant Miller's colleagues.
28.

Defendant Hopkins' demand for cease of communication

between Plaintiffs Everett and Defendant Miller included a deadline of
"August 26,2015 at the hour of 1:00 PM." See: Exhibit B.
29.

At the time of the actions within the course and scope of this

Complaint, Defendants were all domiciled within the State of Georgia.
30.

At the time of the actions within the course and scope of this

Complaint, Plaintiffs Everett were both domiciled in the State of
Alabama.
31.

The State of Georgia is in the Eastern Time Zone of the

United States; the State of Alabama is in the Central Time Zone of the
United States.
32.

Defendant Hopkins' demand specified a deadline of 1:00 PM,

but was silent on the time zone; Plaintiffs Everett reasonably concluded
that such deadline meant to apply their time zone, CST.
33.

From their home in Alabama, Plaintiffs Everett sent one

final email notifying Defendant Miller, on a pro se basis, of status as a

9

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 10 of 53

61a

witness in anticipation of appearing at court to testify in a divorce suit.

See: Exhibit C.
34.

The email was sent from Alabama at 12:36 PM CST.

35.

In an effort to sort the matter out, Mr. Everett followed the

instructions as provided in Defendant Hopkins' email, and attempted to
contact Defendant Hopkins with the telephone numbers provided.
36.

Mr. Everett attempted contact with Defendant Hopkins on

seven occasions, to wit:
Friday, September 4,2015
A.

From 205-405-8462 at 2:06 PM to 770-590-5779.

B.

From 205-405-8462 at 2:06 PM to 678-327-860l.

C.

From 205-405-8462 at 2:07 PM to 770-590-5779.

D.

From 205-405-8462 at 2:17 PM to 678-327-860l.

E.

From 205-405-8462 at 3:07 PM to 770-590-5779.

Monday, September 7, 2015
F.

From 205-405-8462 at 8:09 AM to 770-590-5779.

Tuesday, September 8,2015
G.

From 205-405-8462 at 7:14 AM to 770-590-5779.

10

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 11 of 53

62a

37.

Defendant Hopkins did not answer, accept, or return any of

Mr. Everett's seven attempts at contact.
38.

On Tuesday, September 8, 2015, at 7:18 AM, Defendant

Hopkins answered an eighth telephone call placed from Mr. Everett,
and a conversation ensued.
39.

During

the

course

of the

aforementioned

telephone

conversation, the following occurred:
A.

Defendant Hopkins' first question to Mr. Everett was

whether or not he had an affair with Defendant Miller.
B.

Mr. Everett confirmed to Defendant Hopkins that he

had engaged in the extramarital affair with Defendant
Miller.
C.

Defendant Hopkins' immediate response to Mr. Everett

was the following: "Well, it's too late now; I've already
obtained the warrant."
40.

Defendant Hopkins possessed a duty to revisit the warrant's

application and update the fact therein to include the fact that Mr.
Everett had confirmed an extramarital affair had occurred between he

II

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 12 of 53

63a

and Defendant Miller; alternatively, Defendant Hopkins possessed the
duty to disclose the same to the assigned solicitor.
41.

Defendant Cobb County is responsible for the training of its

law enforcement officers; Defendant Cobb County is responsible for any
lack of training regarding the requirements of its officers' duty to supply
prosecutors and/or solicitors with newly-exculpatory fact.
42.

Defendant Cobb County's training also covers Cobb County's

Police Department and Internal Mfairs Division, the officers of which
are

charged

with

the

responsibility

of enforcing

training

and

disciplining officers who do not fulfill the duties as required; upon
notification of Defendant Hopkins' disregard and/or failure to fulfill his
duty to notify solicitors assigned to the case of critical exculpatory facts,
said Internal Mfairs Division declined to find any fault with Defendant
Hopkins' disregard and/or failure to fulfill their duty to notify solicitors
of critical exculpatory facts discovered after his application for warrant.
43.

The criminal case Mrs. Everett covered communications

regarding an extramarital affair; the question posited by Defendant
Hopkins to Defendant Miller as to was there an actual affair that
happened was therefore material and directly relevant to the matter ­

12

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 13 of 53

64a

any answer to this question was therefore critical the case, and
impacted the resulting investigation and charge.
44.

Within three hours of Mr. Everett's telephone conversation

with Defendant Hopkins, Mrs. Everett was arrested at her home in
Hoover, Alabama, by the Jefferson County Sheriffs Office Warrant
Division. When Mrs. Everett was arrested, she was in the middle of
teaching a lesson to her students; Mrs. Everett is a certified teacher
who teaches English for an online private school.
45.

When Mrs. Everett was arrested, she was interrupted in the

middle of teaching a lesson to her students; Mrs. Everett is a certified
teacher who teaches English for an online private school.
46.

Mrs. Everett was interrupted by a knock at her residence

door; she was taken from her home in handcuffs upon answering her
door, was led in handcuffs to a Jefferson County Sheriffs Office vehicle
parked some distance from Mrs. Everett's house, thus allowing
neighbors and passers-by to witness Mrs. Everett's arrest, and was
transported to the Jefferson County Jail in downtown Birmingham, AL
for detention intake processing.

\3

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 14 of 53

65a

47.

Once at the Jefferson County Jail, Mrs. Everett learned that

she was being charged as a "Fugitive from Justice," a felony, based on
Cobb County's arrest warrant for "Harassing Communications," a
misdemeanor.
48.

Although Mrs. Everett had no experience with arrests, jails,

or criminal procedures, Mrs. Everett has been an English teacher and
college English instructor for many years; this fact led her to question
how she could be a "Fugitive" when she was never physically present in
Georgia and therefore, did not "flee" Georgia.
49.

Mrs. Everett's question was later shown to be valid 2 •

50.

Mrs. Everett was told by Jefferson County Sheriffs Office

deputies that Cobb County prosecutors had sought official for
enforcement of the arrest warrant issued in Cobb County.
51.

Mrs. Everett was then informed that Cobb County's

documentation labeled her as a "Fugitive from Justice," and Jefferson
2Gee v. Kansas, 912 F.2d 414, 418 (lOth Cir. 1990) ("A fugitive from justice is a
person who is 1) suspected of or has been convicted of committing a crime, 2) sought
by the jurisdiction so that the jurisdiction may subject the person to its criminal
justice system, and 3) has left the jurisdiction and is found within the boundaries of
another.") (citations omitted); Moncrief v. Anderson, 342 F.2d 902, 904 (D.C. Cir.
1964) ("Fugitivity means presence in the demanding state when the crime was
allegedly committed."); Daugherty v. Hornsby, C.C.A.5 (Ga) 1945. 151 F.2d 799("To
be a 'fugitive from justice,' one must have been personally present within
demanding state when crime was committed.")
14

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 15 of 53

66a

County was constitutionally bound to process the extraditions of
"fugitives;"3 however, a request for rendition based on the constitutional
provision and

its implementing legislation is

limited to the

extradition of a fugitive from justice found in the asylum state. 4
52.

Plaintiffs Everett later learned that Defendant Hopkins'

criminal warrant application, signed by Magistrate Hugh Robinson,

omitted the fact that Mrs. Everett was physically located in Alabama,
thus creating the belief that Mrs. Everett had a physical presence in
Georgia.
53.

Section 6 of the Uniform Criminal Extradition Act was

designed to cover situations not clearly reached by the constitutionallybased extradition laws; that is, U.C.E.A. allows for the surrender and
rendition of persons whose acts in one state are alleged to have violated
a law in another state.
54.

Mrs. Everett was known by Defendant Hopkins to live In

Alabama; U.C.E.A. § 6 is known as Alabama Code § 15-9-34 (2015).
:lThe Extradition Clause indeed creates a mandatory duty for states to deliver up
fugitives upon proper demand with no discretion residing in the governor or courts
of the asylum state. See Puerto Rico v. Branstad,
U.S.
,97 L. Ed. 2d 187, 107
S. Ct. 2802 (1987).
4Jackson v. Pittard, 211 Ga. 427, 428 (86 SE2d 295) (1955); McFarlin v. Shirley, 209
Ga. 794, 798·799 (76 SE2d 1) (1953).
15

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 16 of 53

67a

55.

Alabama Code § 15-9-34 (2015) provided that, "On demand

of the executive authority of any other state, the Governor of this state
may also surrender any person in this state charged on indictment
found in such other state with committing an act in this state
intentionally resulting in a crime in such other state, and the provisions
of this division not otherwise inconsistent shall apply in such cases,
notwithstanding that the accused was not in that state at the time of
the commission of the crime and has not fled therefrom."
56.

Mrs. Everett was charged with a misdemeanor In Cobb

County, an offense not charged by indictment; rather, an offense
charged by accusation.
57.

Had Defendant Hopkins stated the truth when requesting

the arrest warrant - that Mrs. Everett was accused of committing acts
outside of Georgia to create an effect that violated law within Georgiathe correction would have resulted in denial of any authorization to
arrest Mrs. Everett, even as a non-fugitive. 5

"A charge on information and affidavit is insufficient to support the extradition of
an accused where the charge was not founded on an indictment in the state
requesting the extradition and the accused was not present in that state at the time
the crime was allegedly committed." Tolbert v. State, 54 Ala. App. 381, 308 So. 2d
5

16

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 17 of 53

68a

58.

Defendant Hopkins' concealment of facts intentionally

misled every state actor in both Georgia and Alabama to believe Mrs.
Everett was physically present in Georgia when she was not.
59.

As a direct result of Defendants Miller and Hopkins' acts,

Mrs. Everett was forced to endure a humiliating process for detention.
60.

Mrs. Everett was strip-searched at the Jefferson County Jail

and was subsequently required to undergo a second strip-search, "for
training purposes."
61.

Mrs. Everett was told by the Jefferson County Jail's on-duty

nurse that every scar on Mrs. Everett's body needed to be documented.
62.

The Jefferson County's Jail's on-duty nurse then stated that

Mrs. Everett would "probably get her face bashed in" upon entering the
cell block, and Jefferson County Jail staff would need to know which
scars were present on Mrs. Everett's body before she entered their
facility on September 8, 2015.
63.

Mrs. Everett was processed and jailed as a "Fugitive from

Justice," a felony-level offense. Unlike those persons accused of felonies,
"Fugitives from Justice" are denied any opportunity for release on bond.

17

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 18 of 53

69a

64.

Mter learning of his wife's arrest, incarceration, and the

impossibility for her release on bond, Mr. Everett was compelled by
circumstance to make an unscheduled trip from Birmingham, Alabama
to Marietta, Georgia, to seek legal help for his wife.
65.

On September 8, 2015, at approximately 5:00 PM, Mr.

Everett met with defense attorney Melvin Nash ("Mr. Nash") in
Marietta, Georgia and discussed Mrs. Everett's arrest as a "Fugitive
from Justice" based on Cobb County's misdemeanor charge of
"Harassing Communications."
66.

During the aforementioned meeting:
A.

Because of the circumstances of Mrs. Everett's arrest,
as told to him by Mr. Everett, Mr. Nash expressed
doubt that Mrs. Everett was charged with only a
misdemeanor.

B.

Mr. Nash told Mr. Everett that his fee for handling
Mrs. Everett's case would be $4000.

C.

Mr. Nash stated that his fee would include his next­
day appearance before a Cobb County judge in which
he would request that the warrant used to detain Mrs.

18

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 19 of 53

70a

Everett be lifted, thus releasing Mrs. Everett from the
Jefferson County Jail.
D.

Mr. Nash told Mr. Everett that Jefferson County could
keep Mrs. Everett incarcerated "for forever and a day"
on a "Fugitive from Justice" warrant.

E.
67.

Mr. Everett paid Mr. Nash $4,000.

On September 9, 2015, Mr. Nash was able to have Mrs.

Everett's warrant lifted; however, the unusual, perhaps, unprecedented,
circumstances surrounding Cobb County's initial demand for the arrest
and extradition of Plaintiff Mrs. Everett, immediately followed by Cobb
County's retraction of the "promise to extradite," caused delays in the
processing of Mrs. Everett's release from jail.
68.

Mrs. Everett was released at approximately 10:30 PM on

September 9, 2015, after having spent approximately 36 hours in jail on
a felony charge of "Fugitive from Justice."
69.

Per the conditions of Cobb County's lifting of the warrant, on

September 10, 2015, Plaintiffs Everett drove from their home in
Hoover, Alabama to the Cobb County Adult Detention Center, and Mrs.
Everett turned herself in to authorities.

19

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 20 of 53

71a

70.

Mrs. Everett spent approximately eight hours at the Cobb

County Detention Center before her release on bond.
71.

The fees incurred for the bond totaled approximately $600.

72.

For the time that Mrs. Everett spent unlawfully incarcerated

and detained, Mr. Everett and the Plaintiffs' two elementary-aged
children were deprived of Mrs. Everett's presence and utility, for any
and all purposes possible, including the following:
A.

Mrs. Everett was unable to pick her first-grade
daughter and fourth-grade son up from school, as she
did every day.

B.

Mrs. Everett was unable to fulfill her duties to
superVIse

and

coach

her

daughter's

20-member

cheerleading squad.
C.

Mrs. Everett was unable to fulfill her work-related
duties as a high-school English teacher.

D.

Mrs. Everett was unable to fulfill her work-related
duties as an adjunct university English instructor.

20

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 21 of 53

72a

73.

On March 11, 2016,the misdemeanor charge of Harassing

Communications was dropped by prosecution and resolved in favor of
Mrs. Everett.
74.

In preparation of defense for the case, Plaintiffs Everett paid

$3,500 to attorney Cynthia Counts for consultation and an initial
written draft of a pleading designed to move the case's court of record to
dismiss the charge of "Harassing Communications."
75.

Pursuant to requirements of due process rights, the

prosecutor was required to issue to Mrs. Everett and her defense
attorney Mr. Nash a set of evidence, facts, statements, police
narratives, and other material that shall be hereinafter described as the
"State's discovery material."
76.
the

Upon review of Defendant Hopkins' investigative report in

State's

discovery

material,

Plaintiffs

Everett

learned

that

Defendant Miller lied repeatedly throughout the course of this
investigation. Detective Hopkins' investigative report shows the
following:
A.

Defendant Miller reported that she had never engaged
in an affair with Mr. Everett;

21

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 22 of 53

73a

On 08/25/2015 the victim, Ms. La:ni Miller, came to Pet 1 to report that she had been receiving multiple emails from
the suspect, Amy Everett. She explained that the ernails were crude in their nature and accused Ms. Miller of having an
affair with Ms. Everett's husband. Tjelvar Everett. Ms. Miller was adamant that she had no such affair.

B.

Defendant Miller reported that Mrs. Everett, "had
come to the mistaken idea that Mrs. Miller and the
suspect's husband had an affair";

NARRATIVE

Ms. MIller came into Pet 1 to Cqlort that she had been receiving hamssing emails as well as posts 011 Face Book for the past several
months from the suspect, Ms. Evereue. She advised that me IIDd the :IIIlIpeCt had worked together III a school in Paulding County several
}'Cal1I.~o and that t~ suspect ~ come to the mistabn idea tbcIt Ms. Miller lind the suspect's husband had an affair. Ms. Miller provided

C.

Defendant Miller reported that there was "absolutely
no truth at all" to Mrs. Everett's accusations that
Defendant Miller had an affair with Mr. Everett;

D.

When asked if there was any validity to Mrs. Everett's
accusations, Defendant Miller reasserted, "[t]hat she
had not had an affair with Mr. Everett at any time."

I asked Ms. Miller ifthere was any truth to the accusations made by Ms. Everett. Ms. Miller stated that there was
absolutely no truth to it at all. I explained to Ms. Miller that whether she did or did not have the affair had no bearing
on the fact that Ms. Everett had been hanlssing her, but that I needed to know simply to keep the facts as eJean as
possible for the case. She reiterated that she had not had an affair with Ms. Everett at any time.

77.

Upon reVIew of Defendant Hopkins' investigative report in

the State's discovery material, Plaintiffs Everett also learned that

Defendant Miller concealed facts relevant to the investigationby

22

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 23 of 53

74a

neglecting to report the telephone conversation between herself and
Mrs. Everett.
78.

The aforementioned telephone conversation was the one

and only communication that Defendant Miller had with both herself
and Mrs. Everett both participating, yet Defendant Miller intentionally
concealed this communication when she initiated her complaint against
Mrs. Everett for "Harassing Communications," a statute that had long
been named "Harassing Phone Calls" up until July 1, 2015.
79.

A 36-minute telephone conversation between two adults

must be interpreted as "consensual;" at any time, Defendant Miller
could have terminated the phone call.
80.

During this consensual telephone conversation, Defendant

Miller confirmed and detailed her extramarital affair with Mrs.
Everett's husband, Mr. Everett; additionally, Defendant Miller did not
request or demand that Mrs. Everett stop communicating with her.
81.

One

can

reasonably

conclude

that

Defendant

Miller

concealed the one and only communication that she had with Mrs.
Everett because acknowledging the 36-minute conversation would not
sustain her statements to Defendant Hopkins as truthfuL

23

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 24 of 53

75a

82.

Defendant Miller's emphatic and repeated denials of having

an affair with Mr. Everett would have been marred by the admission
that Defendant Miller had spent 36 minutes, while in her classroom no
less, talking to Mrs. Everett on the telephone, even after having
received two profanity-laden messages via Facebook Messenger in
which Mrs. Everett expressed her disdain for Defendant Miller and her
actions.
83.

No reasonable person would believe that any adult would

spend one minute (let along 36 minutes)on a phone call with a woman
who had "the mistaken idea" that a sexual affair had occurred between
herself and the caller's husband, all the while being called vulgar
names; this is exactly why Defendant Miller made the conscientious
decision to withhold this information from Defendant Hopkins'
investigation.
84.

Based on facts and beliefs, Plaintiffs Everett believe that

Defendant Miller concealed the phone conversation from Detective
Hopkins for the following possible reasons:
A.

The acknowledgement of the phone conversation would
have contradicted Defendant Miller's statements and

24

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 25 of 53

76a

made clear that she was not being forthright; this may
have detracted law enforcement's sympathy toward
her.
B.

The acknowledgement of the phone conversation may
have led to an actual investigation by Cobb County law
enforcement, and a proper investigation would have
revealed that Mrs. Everett's accusations and warnings
were valid; not only would this cause outside sympathy
toward Defendant Miller to wane, Defendant Miller's
immoral acts would have been completely exposed for
all to witness.

C.

The acknowledgement of the phone conversation would
have supported Mrs. Everett accusations and Mrs.
Everett's First Amendment right to warn people of
dangers, two things that Defendant Miller desperately
wanted to eradicate.

85.

Defendant Miller provided Defendant Hopkins with false

statements while simultaneously concealing information being sought

25

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 26 of 53

77a

by a Law Enforcement Officer during the course and scope of an
investigation. See: Exhibit D, Case Supplemental Report dated 9/3/15.
86.

A person who knowingly and willfully falsifies, conceals, or

covers up by any trick, scheme, or device a material fact; makes a false,
fictitious, or fraudulent statement or representation during an official
police investigation is guilty of violating O.C.G.A. § 16-10-20. See
Sneiderman v. State, 336 Ga. App. 153, 784 S.E.2d 18 (2016).
87.

Unlike Sneiderman who was sought by prosecution for

questioning, Defendant Miller obstructed the very investigation that

she initiated.
88.

Defendant Miller had knowledge aforethought that her false

statement to Defendant Hopkins would influence Defendant Hopkins in
such a way as to possibly alter the outcome of the investigation, and
with that knowledge, did intend to make a false statement to a police
officer in order to conceal underlying material facts surrounding the
allegations of "Harassing communications."
89.

Defendant Miller's lies and omissions demonstrate that she

willfully subjected Mrs. Everett to strip search, incarceration, financial
stress, embarrassment, and emotional injuries that are still present two

26

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 27 of 53

78a

years later; however, the worst part of Defendant Miller's actions are
that they caused the instantaneous extraction of Mrs. Everett from her
life and the lives of her children as they had all known them to be.
90.

Out of sheer embarrassment for her own life's decisions and

in an effort to preserve whatever pretense she had established among
co-workers and family, Defendant Miller decided to once again make
Mrs. Everett and her children the victims. Defendant Miller decided
that her ability to manipulate and lie was so great she would be able
convince law enforcement that the victim was actually the victimizer,
and that is exactly what Defendant Miller accomplished with the help of
a Defendant Hopkins.
91.
the

Upon review of Defendant Hopkins' investigative report in

State's

discovery

material,

Plaintiffs

Everett

learned

that

Defendant Hopkins intentionally violated Georgia law in his
quest to chill Mrs. Everett's constitutionally protected speech.
92.

Detective Hopkins' investigative report establishes that

Defendant Hopkins knew that Mrs. Everett lived and worked in
Alabama.

27

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 28 of 53

79a

93.

Neither Defendants Hopkins nor Miller asserted that Mrs.

Everett had been physically present in the State of Georgia.
94.

Because Mrs. Everett had no physical presence In the

State of Georgia, any act, whether lawful or unlawful, committed by
Mrs. Everett was not within Detective Hopkins' jurisdiction to
investigate or regulate.
95.

The Due Process Clause of the Fourteenth Amendment

provides the most obvious restrictions on states wishing to legislate
against persons located outside of its territorial jurisdiction. While
application
96.

"While no United States Supreme Court case has discussed

the application of the Due Process Clause in the criminal legislative
context, it seems apparent that if the Clause restricts the power of the
state in the civil context, where the imposition on a defendant might be
a judgment for damages, it certainly restricts the state in the criminal
context, where the defendant might have his liberty restrained." See
Kurtz, Criminal Offenses and Defenses in Georgia (2016) p. 1005.
97.

"Probably the basic reason why the Supreme Court of the

United States has not had to face squarely the issue of Due Process

28

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 29 of 53

80a

Clause's relationship to extraterritorial application of penal laws is the

traditional restraint exercised by the states in claiming and
exercising such jurisdiction." See Kurtz, Criminal Offenses and
Defenses in Georgia (2016) p. 1005.
98.

This is also supported byAnderson v. Deas, 279 Ga. App.

892, 893, 632 S.E.2d 682, 684 (2006) and Huggins v. Boyd, 304 Ga. App.
563, 565, 697 S.E.2d 253, 255 (2010) where the conduct giving rise to
the offense of stalking occurs at the place where the maker of the call
speaks into the telephone, even when the offense is deemed to occur at
the

place

where

the

communication

was

sent

or

where

the

communication was received.
99.

Detective Hopkins' investigative report establishes that

Defendant Hopkins knew that Mrs. Everett was a school teacher.
100. According to O.C.G.A. § 17-4-40(c), "Any warrant for the
arrest of a peace officer, law enforcement officer, teacher, or school
administrator for any offense alleged to have been committed while in
the performance of his or her duties may be issued only by a judge of a
superior court, a judge of a state court, or a judge of a probate court."

29

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 30 of 53

81a

101. Defendant Hopkins wrote that he, "confirmed ... Ms. Everett
IS

a special education teacher at [Barrett Elementary School in

Birmingham, Alabama]."
102. Additionally,

Mrs.

Everett

has

held

valid

Georgia

administrator and teacher certifications in English, Social Sciences, and
Special Education since 2003. This information is easily accessed
through the Georgia Professional Standards Commission's website at
http://www.gapsc.com/Certifica tionfLookup .aspx.
103. The offense was alleged to have been committed while Mrs.
Everett was in the performance of her duties.
104. The warrant application brought before Judge Robinson
states that Mrs. Everett, "did, between 1115/2015 at 7:32am and
8/26/2015

at

4:00pm...

commit

the

offense

of

Harassing

Communications... "
105. On Thursday, 1115/2015 at 7:32 AM, a teacher would have
been "in the performance of his or her duties."
106. On Wednesday, 8/26/2015 at 4:00 PM, a teacher would have
been "in performance of his or her duties."

30

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 31 of 53

82a

107. Mrs. Everett's email to the several colleagues of Defendant
Miller was done so for the purposes of "protected concerted workplace
activity," specifically designed to mitigate a threat in the workplace.
108. Georgia law is clear that Magistrate Hugh Robinson had no

authority to issue an arrest warrant for Mrs. Everett. 6
109. Although Georgia magistrates "do issue the great bulk of
arrest warrants throughout the state, [a] couple of limitations on the
authority of magistrates should be noted. Only superior court, state
court, or probate court judges may issue a warrant against a peace
officer, law enforcement officer, teacher, or school administrator for an
offense to have been committed in the performance of his or her duties"
(Georgia Magistrate Handbook, Purdom, 2015, §9:1).
110. Defendant

Hopkins'

criminal

warrant

application

intentionally conceals relevant information gleaned from his own
investigation; that is, Mrs. Everett was not physically present in the
State of Georgia for the duration of the case, and Mrs. Everett was a

Georgia state law is clear that magistrates have no lawful authority to issue arrest
warrants for law enforcement officers, judges, [teachers, and school administratorsJ
accused an offense alleged to have been committed during the performance of work
duties. O.C.G.A. § 17-4-40(c). O'Brien v. Polk Cty., No. 4:05-CV-221-RLV, 2006 WL
173633, at *1 (N.D. Ga. Jan. 20,2006)

6

31

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 32 of 53

83a

school teacher, two statements of fact that would have prevented
Magistrate Hugh Robinson from issuing the arrest warrant.
111. A warrant issued by a magistrate who is unqualified under
relevant state law is void ab initio, thus invalidating the search under
the Fourth Amendment. V.S.C.A. Const.Amend. 4.
112. Toknowinglyorrecklesslyomitfromarrestaffidavit information
which, if included, would have vitiated probable cause violates
arrestee's Fourth and Fourteenth Amendment rights. Bruning v. Pixler,
C.A.10 (Colo.) 1991, 949 F.2d 352, certiorari denied 112 S.Ct. 1943, 504

V.S. 911, 118 L.Ed.2d 548.
113. Defendant Hopkins had alleged within his investigation to
have tried to contact Plaintiffs Everett by a particular cell phone
number, 205-405-8462, and that the service was disconnected.
114. Plaintiffs

Everett

had

been

making

use

of

said

aforementioned particular cell phone number, 205-405-8462, for close to
a decade without interruption of services.
115. The very same cell phone number that Defendant Hopkins
claimed was disconnected is the very same particular cell phone

32

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 33 of 53

84a

number, 205-405-8462, that Plaintiffs Everett had been making use of,
as alleged in the previous paragraph no. 116.
116. The very same cell phone number that Defendant Hopkins
claimed was disconnected is the very same particular cell phone number
that Plaintiffs Everett had used when calling Defendant Hopkins seven
times, as alleged in the previous paragraph nos. 29-30.
117. Plaintiffs

Everett

inquired

into

the

circumstances

surrounding the felony-level extradition upon the misdemeanor charge
associated with this case.
118. Plaintiffs inquired into both policy and laws regarding
mandated interstate extradition in both the jurisdictions of Jefferson
County, Alabama and Cobb County, Georgia.
119. It was revealed to Plaintiffs Everett that Cobb County
Sheriffs Department policy regarding suspects or defendants non­
domiciled in Cobb County and not present within Cobb County are
uniformly extradited on felony-level fugitive from justice requests;
misdemeanor charges levied are treated the same as felony charges.

33

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 34 of 53

85a

120. Plaintiff Amy Everett was required to pose for a mugshot as
part of the booking and bonding process when in Jefferson County,
Alabama; Mrs. Everett was labeled with a felony-level charge.
121. Plaintiff Amy Everett's mugshot picture was obtained and
posted on a public website designed to humiliate defendants into paying
for their mugshots to be removed from publication onto the website.
This law applies to only those accused of committing felonies.
122. Plaintiffs' son was doing a research project assigned in-class
that involved searching for Plaintiff Amy Everett's name on the
Internet.

Plaintiffs' son discovered an online copy of Plaintiff Amy

Everett's mugshot online.

This search was done for in-class school

work, and multiple people discovered that Plaintiff had been arrested.
123. Plaintiff Amy Everett's clean arrest record has been forever
blemished as a result of this false charge; the only remedies the State
offers for false charges is a records restriction, which means the false
and malicious arrest still remains in records.
124. O.C.G.A. § 16-11-39.1 is a statute within the laws of the
State of Georgia, and includes the following provision designated to sort
out issues of jurisdiction:

34

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 35 of 53

86a

"(c)

The offense of harassing communications shall be considered

to have been committed in the county where:
(1)

The defendant was located when he or she placed the

telephone call or transmitted, sent, or posted an electronic
communication; or
(2)

The telephone call or electronic communication was

received."
125. Plaintiffs Mrs. Everett are currently both domiciled and
physically present within the borders and jurisdiction of the State of
Alabama, and was so at all times except when Mrs. Everett was
required to turn herself in for booking in order to complete the
resolution of the extradition by way of appearance into the State of
Georgia.

35

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 36 of 53

87a

CAUSES OF ACTION
Count I:
First Amendment Violation Under 42 U.S.C. § 1983
126. The

allegations

of

paragraphs

1

through

126

are

incorporated into the First Claim for Relief as though fully set forth
herein.
127. Senate Bill 72, Act 40, which became effective on July 1,
2015,dramatically changed the statutory language of O.C.G.A. § 16-11­
39.1.
128. Although Act 40, SB 72 states that "the Act changes the
nature of harassing phone calls to providefor modern technology of
texting and other electronic communication," O.C.G.A. § 16-11-39.1
(2015) contains additional revisions that amends the statutory language
O.C.G.A. § 16-11-39.1 (2014.)
129. O.C.G.A. § 16-11-39.1 (2015) amends the title of the statute
from "Harassing Phone Calls" to "Harassing Communications."
130. Absent from O.C.G.A. § 16-11-39.1(2014), O.C.G.A. § 16-11­
39.1(e) explicitly states, "This Code section shall not apply to
constitutionally protected speech."

36

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 37 of 53

88a

131. Constitutionally protected speech has included protected
concerted workplace related expressions, protests, and communications
with express purposes such as to issue warnings.
132. In Defendant Hopkins' criminal warrant application for
Plaintiff Mrs. Everett's arrest, Defendant Hopkins states explicitly that
Plaintiff Mrs. Everett's communications were sent to Defendant Miller's
"supervisor and co-workers," for the purpose of "warning those
individuals that" Defendant Miller "would potentially have an affair
with their husbands as well" Gust as Defendant Miller had done while
working alongside Plaintiff Mrs. Everett.) See Cobb County Criminal
Warrant No. 15-W-7865.
133. The purpose of Plaintiff Mrs. Everett's communication was
to warn against potential damages and to protest extramarital affairs.
134. The communication did not meet the definition of criminal
purpose as stated within the statute. 7
135. The purpose of Plaintiff Mrs. Everett's communication, as
stated in Defendant Hopkins' own words, shows that Plaintiff
See Towell v. Steger, 154 S.W.3d 471, 475 (Mo. Ct. App. 2005) ("To find a 'course of conduct'
to have no legitimate purpose, we must find that the actions were not sanctioned by law or
custom, were not lawful, or allowed."); State v. Pore lie, 822 A.2d 562, 566 (N.H. 2003) ("A
legitimate purpose is onethat is genuine or 'accordant with law. "')
37

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 38 of 53

89a

Mrs.Everett's purpose was to warn Defendant Miller's current co­
workers at Harrison High School of Defendant Miller's history of
engaging in adulterous affairs with co-workers, as Defendant Miller had
done while working at Hiram High School, even while working
alongside, Plaintiff Mrs. Everett.
136. Defendant Hopkins' direct quotation of Plaintiff Mrs.
Everett's use of the words "cunt," "slut," and "whore," in the criminal
warrant application for Plaintiff Mrs.

Everett's arrest confirms

Defendant Hopkins' misapplication of O.C.G.A. § 16-11-39.1 as applied
to Plaintiff Mrs. Everett. See Cobb County Criminal Warrant No. 15-W­
7865.
137. McKenzie v. State, 279 Ga. 265, 626 S.E.2d 77 (2005)held
that the statute subjecting telephone users to prosecution "if the
content of users' expression was found to be obscene, lewd, lascivious,
filthy, or indecent was an overbroad infringement on First Amendment
guarantee of freedom of speech."
138. Defendant Hopkins's written statements show that he relies
upon Plaintiff Mrs. Everett's use of the "obscene, lewd, lascivious, filthy,

38

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 39 of 53

90a

or indecent" words "cunt," "slut," and "whore," to sustain a violation of
a.C.G.A. § 16-11-39.1, a clear violation of First Amendment rights.
139. Although definitions of terms are not provided in a.C.G.A. §
16-11-39.1, according to the rules of statutory interpretation, "Any
portion of a body of laws may be invoked to ascertain meaning of words
and phrases used in another part." Royal Indem. Co. v. Agnew, 1941, 66
Ga.App. 377, 18 S.E.2d 57.
140. The statute

directly preceding a.C.G.A.

§ 16-11-39.1

Harassing Communications is a.C.G.A. § 16-11-39 Disorderly Conduct.
141. a.C.G.A. § 16-11-39(4) provides that a violation of the
statute occurs when a person, "without provocation, uses obscene and
vulgar or profane language in the presence of or by telephone to a
person under the age of 14 years which threatens an immediate breach
of the peace."
142. a.C.G.A. § 16-11-39(4) punishes a person's use of "obscene
and vulgar or profane language" when used "in the presence of or by
telephone with" when the following conditions exist:
A.

The recipient of the language is "a person under the
age of 14 years."

39

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 40 of 53

91a

B.

The

communication,

whether

In

person

or

by

telephone, is "unprovoked" by the "person under the
age of 14 years."
C.

The "unprovoked" communication to the "person under
the age of 14 years" "threatens an immediate breach of
the peace."

143. As provided in the statutory text of O.C.G.A. § 16-11-39, the
statute adjacent O.C.G.A. § 16-11-39.1, Plaintiff Mrs. Everett's use of
"obscene and vulgar or profane language" when used "in the presence of
or by telephone with" Defendant Miller and all other recipients of
Plaintiff Mrs. Everett's communications, would be a clear violation of
Plaintiff Mrs. Everett's right to free speech.
144. TheFirst Amendment allows people to "post messages on the
Internet and [to] send out e-mails" Snyder v. Phelps, 562 U.S. 443
(2011)using terms that are "uninhibited," "vehement," and "caustic."
New York Times Co. v. Sullivan, 376 U. S. 254, 270 (1964).
145. The fact that the statute, as-applied to Plaintiff Mrs.
Everett, violated the First Amendment was clearly established law of
which a reasonable law enforcement officer would have known. Indeed,

40

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 41 of 53

92a

the United States Supreme Court has held that under the First and
Fourteenth Amendments, the government may not criminalize the
"simple" utterance of a "single ... expletive." Cohen v. California, 403
U.S. 15, 26 (1971).
146. In

violating

Mrs.

Everett's

rights

under

the

First

Amendment, Defendant Hopkins directly and proximately caused her to
suffer unlawful arrest, detention, extradition, strip-search of her
person, anguish, embarrassment, and humiliation.
147. Defendant Cobb County may be held liable for the violation
of Mrs. Everett's First Amendment rights pursuant to Monell v.
Department of Social Services, 436 U.S. 658 (1978). Monell holds that a
municipality can be sued for damages under 42 U.S.C. 1983 when "the
action that is alleged to be unconstitutional implements or executes a
policy statement, ordinance, regulation or decision officially adopted by
that body's officers." Id. at 659 (emphasis added).
148. Defendant Cobb County and its officers had a policy of
arresting individuals primarily under the disorderly conduct statute for
cursing, but have also included Harassing Communications. This policy
was subsequently implemented as the

41

sole basis for Plaintiff

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 42 of 53

93a

Mrs.Everett's unlawful Seizure, arrest, strip-search, imprisonment,
unlawful extradition detention, and prosecution.
149. Absent from O.C.G.A. § 16-11-39.1(2014), O.C.G.A. § 16-11­
39.l(c)(1)(2)provides, that "the offense of harassing communications
shall be considered to have been committed in the county where:
1.

The defendant was located when he or she placed the
telephone call or transmitted, sent, or posted an
electronic communication; or

2.

The telephone call or electronic communication was
received."

150. According to the rules of statutory interpretation a statute
presumes to have no extraterritorial application (statuta suo clauduntur

territorio nee ultra territorium disponunt).
151. This is also supported by Anderson v. Deas, 279 Ga. App.
892,893,632 S.E.2d 682,684 (2006) and Huggins v. Boyd, 304 Ga. App.
563, 565, 697 S.E.2d 253, 255 (2010) where the conduct giving rise to
the offense of stalking occurs at the place where the maker of the call
speaks into the telephone, even when the offense is deemed to occur at

42

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 43 of 53

94a

the

place

where

the

communication

was

sent

or

where

the

communication was received.
152. It is well settled that "no state or nation can, by its laws,
directly affect, bind, or operate upon property or persons beyond its
territorial jurisdiction," and "a statute which purports to have such
operation is invalid." Sayles v. Russell, 247 S.C. 506, 508, 148 S.E.2d
373,374 (1966).
153. Plaintiff Mrs. Everett is a resident of Alabama, was not in
the State of Georgia at any time since moving from Georgia in 2010,
and these facts were known by Defendant Hopkins and confirmed upon
review of his investigative documentation.
154. Defendant Hopkins' misapplication of a Georgia statute
upon Plaintiff Mrs. Everett, an Alabama resident who had no physical
presence within the territorial jurisdiction of Georgia, resulted in a
deprivation of Plaintiff Mrs. Everett's First Amendment rights.

Count II:
First Amendment Violation Under 42 U.S.C. § 1983
(Retaliation)

43

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 44 of 53

95a

155. The

allegations

of

paragraphs

1

through

155

are

incorporated into the Second Claim for Relief as though fully set forth
herein.
156. On September 8 th ,

2015, Defendant Hopkins actively

initiated and procured the extradition for arrest and prosecution of Mrs.
Everett in a criminal action in retaliation for her vocal protest and
criticism of a County teacher's extramarital affair.
157. Defendant Hopkins acted without even jurisdiction or
arguable probable cause in initiating and procuring the extradition and
arrest of Mrs. Everett.
158. Defendant Hopkins acted with malice In initiating and
procuring the extradition and arrest of Mrs. Everett.
159. Defendant Hopkins' retaliatory acts violated Mrs. Everett's
rights under the First Amendment of the United States Constitution.
160. In

violating

Mrs.

Everett's

rights

under

the

First

Amendment to the United States Constitution, Defendant James
Hopkins directly and proximately caused her to suffer unlawful
extradition, arrest, detention, strip-search of her person, anguish,
embarrassment and humiliation.

44

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 45 of 53

96a

161. Defendant Cobb County may be held liable for the
unconstitutional retaliation against Mrs. Everett pursuant to Monell v.
Department of Social Services, 436 U.S. 658 (1978) because Defendant
Cobb County and its officers had a policy of arresting individuals under
the disorderly conduct statute (including the related statute of
Harassing Communications) in retaliation for the use of profanity. This
policy was subsequently implemented as the sole basis for Mrs.
Everett's unlawful seizure-by-extradition, arrest, imprisonment, and
prosecution.

Count III:
Fourth Amendment Violation Under 42 U.S.C. § 1983
162. The

allegations

of

paragraphs

1

through

162

are

incorporated into the Third Claim for Relief as though fully set forth
herein.
163. Defendants

Hopkins

violated

Mrs.

Everett's

Fourth

Amendment right to be free of unlawful search and seizure of the
person by levying charges against a defendant beyond the scope and
bounds of the jurisdiction of his agency, much less that of his agency's

45

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 46 of 53

97a

domiciled state, that would lead to Mrs. Everett's arrest without even
arguable probable cause to believe that she had committed a crime.
164. That there can be no arguable probable cause to arrest for a
nonexistent crime was clearly established law of which a reasonable law
enforcement officer would have known. That the allegations occurred
from a state territory completely outside the bounds, jurisdiction, and
scope of the State of Georgia. That the reported crime was nonexistent
follows

from

the

Communications

fact
statute

that
to

the

application

Mrs.

Everett'

of the
lawful

Harassing
conduct

IS

unconstitutional.
165. Mrs. Everett's arrest was objectively unreasonable and
opprobrious.
166. In violating Mrs.

Everett's rights

under the

Fourth

Amendment to the United States Constitution, Defendant Hopkins
directly and proximately caused Mrs. Everett to suffer unlawful
extradition, strip-search, arrest, detention, anguish, embarrassment
and humiliation.
167. The overwhelming majority of mInor code violations are
dealt with by citation and not by arrest.

46

The fact that Defendant

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 47 of 53

98a

Officers Hopkins used the utmost extreme measure - an unlawful
detention of Mrs. Everett' liberty - for such a minor action on the part
of Mrs. Everett shows the true motivation of the named Defendants in
this action.
168. Defendant Cobb County can be held liable for the violation of
Mrs. Everett's right to be free of unlawful seizure of her person
pursuant to Monell v. Dept. of Soc. Serv., 436 U.S. 658 (1978) because it
adopted a "policy" of unlawfully seizing and arresting individuals under
the disorderly conduct statute simply for cursing, and has now spread
that policy to the related statute of Harassing Communications.

Count IV:
False Imprisonment
169. The

allegations

of

paragraphs

1

through

169

are

incorporated into the Fourth Claim for Relief as though fully set forth
herein.
170. Defendant Hopkins detained Mrs. Everett by way of agency­
in-lieu-of-actor when he deprived her of her liberty by securing an
arrest warrant, initiating the extradition process, poaching the
resources and manpower of Jefferson County Sheriffs Office to cause

47

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 48 of 53

99a

her arrest by VICariOUS means through the extradition process, and
abusing the legal processes available between and within both the
States of Georgia and Alabama to effect an out-of-jurisdiction securing
of her against her will without even arguable probable cause or
jurisdiction to believe that she had committed a crime.
171. The detention of Mrs. Everett was unlawful because it
occurred pursuant to a statute that, as-applied to Mrs. Everett, IS
unconstitutionaL
172. Defendant Hopkins

therefore

falsely

imprisoned Mrs.

Everett in violation of O.C.GA. § 16-5-41.

Count V:

False Arrest
173. The

allegations

of

paragraphs

1

through

173

are

incorporated into the Fifth Claim for Relief as though fully set forth
herein.
174. Defendant James Hopkins detained Mrs. Everett when he
deprived her of her liberty by using Jefferson County Sheriffs Dept.
manpower under power of extradition to pull her from her residence

48

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 49 of 53

100a

against her will from outside his jurisdiction without even arguable
probable cause to believe that she had committed a crime.
175. The arrest of Mrs. Everett was malicious because it was
effectuated in direct retaliation for her exercise of her First Amendment
right to free expression and in reckless disregard of her constitutional
rights.
176. By maliciously securIng an arrest warrant and then
maliciously abusing the use of the resources and manpower of Jefferson
County Sheriffs Office via extradition processes to cause the arrest of
Mrs. Everett under process of law, without probable cause and without
jurisdiction, Defendant James Hopkins vicariously falsely arrested Mrs.
Everett in violation ofO.C.GA. § 51-7-1.

Count VI:
Malicious Prosecution
177. The

allegations

of

paragraphs

1

through

177

are

incorporated into the Sixth Claim for Relief as though fully set forth
herein.

49

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 50 of 53

101a

178. Defendant Cobb County, by and through its agents,
prosecuted Mrs. Everett pursuant to a valid accusation for violating
O.C.G.A. § 16-11-39.1.
179. Defendant Cobb County, by and through its agents,
prosecuted Mrs. Everett outside of their jurisdiction and bounds,
whereby forcingMrs. Everett into the State of Georgia in order to
address the charge levied unlawfully.
180. Said prosecution was initially done with malice and without
probable cause.
181. Defendant Cobb County, by and through its agents, required
a second-review in order to stop the prosecution of Mrs. Everett despite
initially knowing both the facts and the law, which clearly showed that
the statute and ordinance were unconstitutional as applied to her
communications and thus could not constitute a valid basis for
prosecution. Further, Defendants knowingly and willingly procured the
prosecution of Mrs. Everett for her conduct that was both initiated and
permitted within the State of Alabama.
182. Ultimately, the prosecution against Mrs. Everett was
terminated in her favor.

50

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 51 of 53

102a

183. Defendant Cobb County, by and through its agents, thereby
maliciously prosecuted Mrs. Everett in violation of O.C.G.A. § 51-7-44.
184. § 51-7-40.

Right of action for malicious prosecution:

"A criminal prosecution which is carried on maliciously and without any
probable cause and which causes damage to the person prosecuted shall
give him a cause of action."
185. § 51-7-42. Inquiry before committing court or magistrate as
prosecution:
"For purposes of this article, an inquiry before a committing court or a
magistrate shall amount to a prosecution."
186. Defendants Hopkins and Miller, directly and/or indirectly,
enacted an inquiry to enforce the laws of Georgia upon the out-of-state
actions by an out-of-state resident, Mrs. Everett.
187. The Georgia law of Harassing Communications was used to
silence a critic, namely Mrs. Everett, for her excoriating expressions to
condemn an extramarital affair and to prevent such from re-occurring.

PRAYERS FOR RELIEF
WHEREFORE, on the basis of the foregoing, Plaintiff prays that
this Court:

51

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 52 of 53

103a

(1)

Enter an award of economic, compensatory, general, and special

damages in an amount to be determined by the enlightened conscience
of the jury against Defendants;
(2)

Enter

a

preliminary

and

permanent

injunction

against

Defendants, their officers, agents, successors, employees, attorneys, and
those

acting

In

concert

with

them,

from

any

future,

non­

pending arrest or prosecution under the unconstitutional application of
Georgia's Harassing Communications statute, O.C.G.A. § 16-11-39.1, to
individuals expressions including profanity that does not rise to the
level of "fighting words" and to residents outside the State of Georgia;
(3)

Award Plaintiffs Everett punitive damages in the amount to be

determined by the enlightened conscience of the jury against the
individual Defendants;
(4)

Grant to Plaintiffs Everett a jury trial on all issues so triable;

(5)

Award to Plaintiffs Everett the costs of the action and reasonable

attorneys' fees, as provided by 42 U.S.C. § 1988 and federal and state
law; and
(6)

Grant any and all additional relief as this Court deems proper and

just.

52

•

Case 1:17-cv-03392-TWT Document 1 Filed 09/06/17 Page 53 of 53

104a

JURY DEMAND
Plaintiffs Everett demand a jury trial on all issues so triable.
Dated: September 4,2017.

Respectfully submitted,

();/lt0VUW~
Amy Everett, Pro Se

Tjelvar Everett, Pro Se
2456 Hawksbury Ln,
Hoover, Alabama 35226
Telephone: (205) 405-8462
Email: Tj.everett@live.com

53

Case 1:17-cv-03392-TWT Document 1-1 Filed 09/06/17 Page 1 of 2

105a

EVERETT V MILLER ET AL
EXHIBIT
A

Case 1:17-cv-03392-TWT Document 1-1 Filed 09/06/17 Page 2 of 2

106a
'.

,,
'

~

\,

Warrant No. lS-W-7865 Case No. 15080289

"CRIMINAL WARRANT
MAGISTRATE COURT OF COBB COUNTY
GEORGIA, COBB COUNTY

Warrant No. lS-W-7865
Police Case No. 15080289

Personally came J W Hopkins who makes oath before a Magistrate of this Court that Amy Kathleen Everett (hereinafter called the
accused) AKA: Amy Lofgren. Amy Tunison did. between 111512015 at 07:32 AM and 812612015 at 04:00 PM at 4500 Due West

Rd,Kennesaw in the County of Cobb,Georgia, commit the offense of HARASSING COMMUNICATlONS(M) violating O.C.G.A,
Section 16-11-39.1 ,for that said accused did contact Lani Miller repeatedly via telecommunication, e-mail, text messaging or any
other form of electronic commWlication, for the purpose of harassing. molesting, threatening. or intimidating said victim or their

family, to wit: Said accused did. starting on January ]5.2015, send emaiIs to the victim claiming that the victim had engaged in an
extramarital affilir with the accused's husband. The emails continued through August 26. 2015 in which the said accused called the
victim various derogatory 'names such as "cunt" and "slut". Said accused also sent emails to the victim's work, Harrison High School.
including to her supervisor and co-workers calling the victim the same derogatory names and warning those individuals that the victim '
would potentially have an affair with their husbands as well. An email was also sent to the victims mother advising her that the victim

was a "whore". ;
and affiant makes this affIdavit that a warrant may issue for the arrest ofthe accused.

Affiant: J W Hopkins
Badge No. cc0933
Sworn to and subscnDed before me. this 28th day ofAugust. 2015.

Magistrate: H Robinson

To any Sheriff, Deputy Sheriff, Coroner, Constable, or Marshall or said State ­
GREETINGS:
For sufficient cause made known to me in the above affidavit, incorporated by reference herein, and other sworn testimony established
probable cause for the arrest of the accused. you are therefore commanded to arrest Amy Kathleen Everett accused named in the
foregoing affidavit charged by the prosecutor therein with the offense ~ the laws of this State named in said affidavit and bring
the accused before me, or some other judicial officer ofGeorgia, to be dealt with as the law directs. HEREIN FAIL NOT.
This 28th day of August, 2015.

MAGISTRATE: H Robinson

..u:

As tile issaillgJlldge/amaat.,
,..
I do hereby verily dult tlds document is I. origioal erimiDal warr••t witll dettroaklUy geaerated IIp.hlra. Jlldgd~t_-"r---"~_

Case 1:17-cv-03392-TWT Document 1-2 Filed 09/06/17 Page 1 of 2

107a

EVERE1T V MILLER ET AL
EXHIBIT
B

Case 1:17-cv-03392-TWT Document 1-2 Filed 09/06/17 Page 2 of 2

108a
COBB COUNTY POLICE DEPARTMENT
140 North Marietta Parkway
Mari,'tta. G,'orgia 30060-1454
(770) 499-3900

Y

tax, (770) 499-4195

J.R. Houser Chief(!fPo/ice
R.L. Prince Deputy ChiejojPolire

C. T.

COX Deputy ChiejojPolice

www.police.cohbcountyga.gol'

TO:

Amy Kathleen Everett

FROM:

Detective J.W. Hopkins

SUBJECT:

Case# 15-080289

DATE:

August 26, 2015

Ms. Everett,
I am writing you because I have been thus far unable to locate a working telephone number for you. I
am letting you know that a complaint of Harassing Communications has been filed listing you as the
suspect/offender. I understand that there has been an issue between yourself and Ms. Miller and that you
believe some infidelity occurred between her and your now ex-husband. Whether there was any
infidelity or not has no bearing on this investigation and does not in any way condone harassing a person
through any means of communication. I have sent this to each and every email account that I suspect
you have created for the purpose of harassing both Mr. and Ms. Miller.
The purpose of this correspondence is to simply provide you with a legal warning to cease and desist
with any further communication with Mr. Clay Miller and Ms. Lani Miller in any way, shape, form or
fashion. This is to include but is not limited to: verbal communication through telephone, cellular phone,
email, text message, voice mail, social media, and regular mail. You are also to cease any
communication with anyone personally or professional associated with Mr. or Ms. Miller that could in
any way be considered harassment. IF there is any further communication beyond today's date of August
26,2015 at the hour of 1:OOpm. I will secure a warrant for your arrest on the charge of Harassing
Communications and Stalking.
If you have any questions regarding this matter I will be happy to discuss it with you. You may contact
me Monday - Friday 7:30am-3:30pm at the numbers listed in the email. Otherwise, I will assume that
you have received this email and understand its contents as well as the consequences to any further
communication with the Millers in any way.
Det. l.W. Hopkins
Cobb County Police Department

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 31 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

109a
1

or something after you type it, but the one "to

2

wit" that shows up, everything after that, you

3

had to add?

4

A

Yes, sir.

5

Q

And got some prompts or something,

6

and you answer a little bit of stuff before the

7

to wits?

8

A

Correct.

9

Q

Okay.

And I noticed you put in here

10

that, you know, the emails were claiming that the

11

victim had engaged in an extramarital affair with

12

the accused's husband.

13

because you believe that was material to the

14

charge?

15

A

Did you put that in there

I felt that it was background

16

information.

17

element to harassing communications.

18

have to prove motive or the why, but it made it

19

easier for the judge to understand what's going

20

on.

21

Q

It was the why.

Okay.

There's no motive
I don't

And so you didn't evaluate

22

or -- when you looked at each of these emails,

23

did you go through each of those emails and

24

determine whether it was obscenity or not

25

obscenity?

30
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 32 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

110a
1

A

I read each email, and then I took

2

them as a whole.

3

not be.

4

like yourself to argue whether it is or isn't

5

protected or whatever.

6

persistent and it becomes compressed in time as

7

over and over and over with those sorts of

8

vulgarities laden in them, it becomes harassing.

9
10
11

It's -- one email may or may

That's for, you know, legal scholars

Q

All right.

there in August?
A

But when it becomes

So how many emails were

Five?

There were five emails, I believe,

12

after the one that Ms. Everett basically admitted

13

that she knew that Ms. Miller didn't want to be

14

contacted anymore, where she states, poor Lani

15

doesn't want to be contacted.

16

that, just those, is probable cause for the

17

charge.

18

Q

All right.

Everything after

Did you put any of that

19

information in your warrant about knowing she

20

didn't want to be contacted?

21
22
23

A

It's not there.

No, it's not in the

written warrant.
Q

So after you write this up,

24

Plaintiffs' 3 -- I mean Defendants' 6, you

25

contacted the judge by some telephonic thing.

31
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 39 of 62
James Hopkins

1
2

Q

Everett vs Cobb County, Georgia, et al.

All right.

November 14, 2018

So the one that has the

Bates number down at the bottom JPB011?

3

A

Yes, sir.

4

Q

Okay.

5

A

Last paragraph.

6

Q

Okay.

And you're saying --

Now, did you have any other

7

communications or contact about the case after

8

9-3-2015?

9

A

Not that I recall.

10

Q

Do you recall talking to Mr. Everett

11
12

on the morning of September 8?
A

If that was the 8th and you've got

13

documentation to show that, then I'll submit it

14

was the 8th.

15

I just don't remember what date.

16
17
18

111a

Q

I remember talking to Mr. Everett.

Okay.

That's fine.

Tell us what you

remember about the conversation?
A

It was short.

He called up to

19

basically tell me that the affair did happen,

20

admit to it.

21

substance about the actual case at hand other

22

than the fact that he didn't think that his wife

23

warranted being arrested for, you know, something

24

that, you know, he had caused.

25

I don't remember very much

I don't know.

I told him that the warrant had

38
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 40 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

112a

1

already been issued, that the extradition had

2

already been approved, and there was probable

3

cause for the harassing communications and that

4

we'd be pursuing those charges.

5
6

Q

All right.

Do you remember saying it

was too late?

7

A

I may have said something like that.

8

Q

But your intent was not that you

9

might have withdrawn it, but your intent was, and

10

you expressed it to him, was you were going to go

11

through with it because of the probable cause?

12

A

Correct.

13

Q

All right.

You know, if

14

Ms. Miller -- I mean, if Ms. Everett had lived

15

here in Georgia, is this a case that could have

16

gone through a magistrate's prewarrant hearing?

17

A

On the surface, a harassing

18

communications case can be advised for

19

procedures.

20

Q

But because she was difficult to get

21

ahold of because she was over in Alabama, she

22

didn't get to go through that process?

23

MR. SNELLING:

24

Q

Right?

25

A

Right.

Object to the form.

Basically?

39
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 41 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

113a
1

Q

Okay.

2

A

And that's not to say that if she

3

lived in Cobb County that she would have gotten

4

to go through that process.

5

Q

But if you'd have contacted her

6

here -- if you'd have contacted her -- what

7

didn't happen was postdiscussions with no contact

8

between you and the Everetts.

9

that?

No question about

10

A

Right.

11

Q

And if she'd still been teaching at

12

that school, Ms. Everett could have been saying

13

those things to her at the school all day long,

14

and there wouldn't have been anything you could

15

have done about it; right?

16

MR. SNELLING:

Object to the form.

17

A

Saying them to her?

18

Q

Absolutely.

19

A

I don't believe I could, but that's

20
21

not what happened here.
Q

There you go.

So were you aware that

22

on an extradition that Ms. Everett could have sat

23

in jail for three months with extensions on the

24

pick up?

25

A

I have no idea.

40
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 50 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

114a
1

same --

2

A

Yes.

3

Q

Okay.

4

And that would have been

8-25-2015?

5

A

6

(Whereupon a document was identified as

7

Plaintiffs' Exhibit 4.)

8

Q

9

Yes, sir.

All right.

And let me show what

we've marked as Plaintiffs' Exhibit 4.

Can you

10

tell us what that is from as part of something, I

11

believe?

12
13
14
15
16
17

A

Yeah.

That looks like a performance

appraisal, part of one.
Q

Now, do you remember who did your

performance appraisal in 2015?
A

It would have had to have been

Sergeant Mobley.

18

Q

Okay.

19

A

Yeah.

20

Q

All right.

21

A

Received an overall exceeds

22
23

And I noticed there's --

performance standards that year as well.
Q

And I noticed that there's nothing

24

mentioned in there about this cease and desist

25

letter.

Do you know why that didn't -- wasn't

49
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-5 Filed 03/04/19 Page 51 of 62
James Hopkins

Everett vs Cobb County, Georgia, et al.

November 14, 2018

115a
1

part of the performance evaluation?

2

MR. SNELLING:

3

A

Object to the form.

Well, being as I actually write these

4

now, I can certainly answer that question.

5

sure that the email that I sent Ms. Everett's not

6

mentioned in that performance appraisal anymore

7

than the fact that I made a phone call and

8

contacted the victim in another case.

9

product.

10

I'm

It's work

It's not --

Q

Do you -- are you involved in the

11

writing of courtesy letters or cease and desist

12

letters now?

13

A

At this present moment, no.

14

Q

Well, in your position?

15

A

No, yeah, no.

I certainly could take

16

a case if I chose to.

17

still.

18

everything were presented similarly, I would

19

handle it similarly.

20

I am in investigations

And if -- if the circumstances and

Q

Was any training offered in writing

21

these letters, I mean, what should go into them

22

or how they should be done?

23

A

No.

24

Q

Okay.

25

So it's your understanding

that if a phone number gives a recording that

50
Donovan Reporting, PC

Electronically signed by Natalie Sandi (401-071-744-9134)

770.499.7499

0dc43fd6-c56c-4ca5-b2c8-04df65f25151

Case 1:17-cv-03392-TWT Document 71-9 Filed 03/04/19 Page 1 of 1

116a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 1 of 11

117a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 2 of 11

118a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 3 of 11

119a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 4 of 11

120a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 5 of 11

121a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 6 of 11

122a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 7 of 11

123a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 8 of 11

124a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 9 of 11

125a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 10 of 11

126a

Case 1:17-cv-03392-TWT Document 72-3 Filed 03/04/19 Page 11 of 11

127a

Case 1:17-cv-03392-TWT Document 72-16 Filed 03/04/19 Page 1 of 4

128a

Case 1:17-cv-03392-TWT Document 72-16 Filed 03/04/19 Page 2 of 4

129a

Case 1:17-cv-03392-TWT Document 72-16 Filed 03/04/19 Page 3 of 4

130a

Case 1:17-cv-03392-TWT Document 72-16 Filed 03/04/19 Page 4 of 4

131a

Case 1:17-cv-03392-TWT Document 72-17 Filed 03/04/19 Page 1 of 1

132a

